<html>
<title> - HEARING ON REAUTHORIZATION OF THE CHESAPEAKE BAY PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





             REAUTHORIZATION OF THE CHESAPEAKE BAY PROGRAM

=======================================================================

                                (111-60)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
52-467 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)



            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland           Carolina
SOLOMON P. ORTIZ, Texas              TODD RUSSELL PLATTS, Pennsylvania
PHIL HARE, Illinois                  BILL SHUSTER, Pennsylvania
DINA TITUS, Nevada                   MARIO DIAZ-BALART, Florida
HARRY TEAGUE, New Mexico             CONNIE MACK, Florida
ELEANOR HOLMES NORTON, District of   LYNN A WESTMORELAND, Georgia
Columbia                             CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      ANH ``JOSEPH'' CAO, Louisiana
MAZIE K. HIRONO, Hawaii              PETE OLSON, Texas
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)












                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Brinsfield, Dr. Russell B., University of Maryland, Queenstown, 
  Maryland.......................................................    50
Bryant, Jr., L. Preston, Secretary, Office of the Secretary of 
  Natural Resources, Office of Virginia Governor Timothy M. Kaine    21
Connolly, Hon. Gerald E., a Representative in Congress from the 
  State of Virginia..............................................    14
Cosgrove, Hon. John A., a Delegate in the Virginia House of 
  Delegates and Chair of the Chesapeake Bay Commission...........    21
Drzyzgula, Council Member Cathy, City of Gaithersburg, 
  Gaithersburg, Maryland, Testifying on Behalf of Metropolitan 
  Washington Council of Governments..............................    50
Fox, J. Charles, Senior Advisor to the Administrator, United 
  States Environmental Protection Agency.........................    21
Hawkins, George S., Director, District of Columbia Department of 
  the Environment................................................    21
Hughes, Peter, President, Red Barn Consulting, Inc., Lancaster, 
  Pennsylvania...................................................    50
Johnson, Jerry, General Manager, Washington Suburban Sanitary 
  Commission, Laurel, Maryland...................................    50
Pugh, Molly, Executive Director, Virginia Grain Producers 
  Association, Chesapeake, Virginia..............................    50
Sturla, P. Hon. Michael, a Representative in the Pennsylvania 
  House of Representatives.......................................    21
Wilson, Shari, Secretary, Maryland Department of the Environment.    21
Wittman, Honorable Rob, a Representative in Congress from the 
  State of Virginia..............................................    14

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    69
Mitchell, Hon. Harry E., of Arizona..............................    70

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brinsfield, Dr. Russell B........................................    71
Bryant, Jr., L. Preston..........................................    73
Connolly, Hon. Gerald E..........................................    83
Cosgrove, Hon. John A............................................    88
Drzyzgula, Council Member Cathy..................................    92
Fox, J. Charles..................................................   107
Hawkins, George S................................................   121
Hughes, Peter....................................................   125
Johnson, Jerry...................................................   129
Pugh, Molly......................................................   137
Sturla, Hon. Michael P...........................................   142
Wilson, Shari....................................................   145
Wittman, Honorable Rob...........................................   149

                       SUBMISSION FOR THE RECORD

Johnson, Hon. Eddie Bernice, a Representative in Congress from 
  the State of Texas:............................................
      Chesapeake Bay Watershed Coalition and Choose Clean Water 
        Campaign, letter.........................................     2
      Ducks Unlimited, written testimony.........................     5

                        ADDITIONS TO THE RECORD

Environmental Working Group, Michelle Perez, Principal Author and 
  Craig Cox and Ken Cook, Contributing Authors:..................
      Letter.....................................................   153
      Executive Summary..........................................   155
State of New York, Department of Environmental Conservation, 
  Alexander B. Grannis, Commissioner, written testimony..........   186


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
        HEARING ON REAUTHORIZATION OF THE CHESAPEAKE BAY PROGRAM

                              ----------                              


                      Tuesday, September 22, 2009,

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson of Texas [Chair of the Subcommittee], 
presiding.
    Present: Representatives Johnson of Texas, Boozman, Cao, 
Cummings, Edwards, Hare, Latta, Oberstar, Perriello, and 
Platts.
    Ms. Johnson of Texas. The Committee will come to order.
    I would like to ask unanimous consent to enter two pieces 
of testimony into the record. The first is from the Chesapeake 
Bay Coalition and the second is from Ducks Unlimited.
    [The referenced documents follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Johnson of Texas. I also would like to request 
unanimous consent that Congressman Cummings be allowed to 
participate in this hearing of the Subcommittee on Water 
Resources and Environment. He should be here shortly.
    Any objection? Hearing none.
    Just over a year ago, this Subcommittee held a hearing on 
the Chesapeake Bay that highlighted its impairments and 
provided recommendations for its recovery. Today's hearing is 
the next step in restoring the estuary.
    This afternoon, we will hear from a series of distinguished 
panelists on the reauthorization of the Chesapeake Bay Program. 
We are pleased that we also have the opportunity to hear from 
two of our distinguished colleagues from Virginia, Congressman 
Gerry Connolly and Congressman Robert Wittman. Their districts 
are, as you know, at the lower end of the watershed. They are 
literally downstream, as such. They can offer great clarity to 
the cloudy bay, and we will look forward to their comments and 
contributions to this discussion.
    The combination of a new and committed Administration, an 
unhealthy watershed, and a dedication to solutions and 
accountability from both sides of the aisle illustrates that 
the time to act must be now.
    But as we discuss the reauthorization of Section 117 of the 
Clean Water Act, and while we call for accountability, we must 
all set a goal of realizing a process for restoring the Bay 
that is characterized by equity and effectiveness. Speaking 
plainly, without these elements, the Chesapeake Bay will not be 
restored.
    The primary pollutants in the Chesapeake Bay are nutrients 
and sediment. These pollutants come from a variety of sources, 
some regulated, others not. The only way we are going to be 
able to unlock the puzzle that is a dying Chesapeake is through 
the creation of a fair system whereby those that pollute the 
Bay are proportionately responsible for cleaning it up.
    Renewing and, in some cases, installing a sense of 
accountability will not result in a healthy and restored bay. 
It is the right and just thing to do.
    EPA tells us that 20 percent of the nitrogen loadings to 
the Bay come from wastewater treatment facilities; 21 percent 
comes from atmospheric deposition; and 16 percent from urban 
and suburban runoff; and 43 percent comes from agricultural 
sources.
    The wastewater treatment community has long been regulated 
under the Clean Water Act. As such, publicly owned treatment 
works have been consistent partners with the States of the Bay 
watershed in reducing nutrient loadings. That said, a number of 
treatment works have nutrient permit limits that are in excess 
of the levels achievable by current technology. Through trading 
or technology these lagging facilities must be brought up to 
speed.
    Resolving the issue of atmospheric deposition is a vexing 
problem. With environmental statutes that remain stovepiped, 
our ability to get at the fallout of nitrogen onto the waters 
and landscape of the Bay watershed is handicapped. Through 
implementation of pending Clean Air Act programs such as the 
Clean Air Interstate Rule, we can anticipate sizable 
reductions. Whether these will achieve the gains necessary will 
remain to be seen, as will the matter of whether there needs to 
be a closer linkage between the Clean Water and Clean Air Acts.
    All levels of government, Federal, State and local, must do 
a better job with urban and suburban stormwater control and 
mitigation. This is the sole sector in which pollutant loadings 
are increasing. It is untenable that while 31 percent of the 
total loadings of phosphorus into the Bay are from urban and 
suburban sources, 6 percent are covered by stormwater permits.
    11 percent of the total nitrogen loadings are from urban 
and suburban sources, and only 2 percent are covered by 
permits; and where 19 percent of all sediment loadings come 
from urban and suburban sources, only 4 percent of the sediment 
loadings are covered under permits.
    Many of these stormwater inputs are point source 
discharges. As such, they must be better brought in under the 
manifold of the Clean Water Act. We have now held multiple 
hearings on the effectiveness of the green infrastructure. 
Given the cost effectiveness of many of these technologies, 
development should not be seen as a free pass to polluters.
    Finally, agriculture is an area in which improvements can 
and must be made. While nutrient reductions have indeed 
occurred as a result of the incorporation of best management 
practices on farms and the application of regulations to 
industrial livestock operations, the fact remains that 
agriculture remains the largest single source of pollutants 
into the Bay. If we are to clean up the Bay, agriculture must 
bear responsibility for its proportionate share of watershed 
impairment.
    The value of the Bay lies not just to the States of 
Maryland and Virginia. As a Member from Dallas, Texas, it is 
obvious that I live outside this watershed. Yet I know that 
restoring this estuary is a matter of great importance. The Bay 
is, as President Obama recently put it, a national treasure.
    As such, I recognize that we all live downstream no matter 
where we, in fact, reside. The benefits of a cleaner Chesapeake 
Bay will, of course, accrue to the estuary itself, but these 
benefits are by no means limited to just the Bay proper. A 
cleaner bay necessarily means a cleaner Anacostia for the 
District and a cleaner Susquehanna for Pennsylvania, healthier 
headwater streams in Delaware, a more pristine south branch of 
the mighty Potomac River in West Virginia, and a more vibrant 
Oswego in New York.
    More accountability, equity and effectiveness means both a 
healthier bay downstream and cleaner waters upstream in which 
all people of this watershed may better and more healthily 
drink, swim and fish.
    I thank all of you for being here this afternoon, and I now 
yield to our Subcommittee Ranking Member, Mr. Boozman, for his 
opening statement.
    Mr. Boozman. Thank you very much, Madam Chair.
    I certainly want to welcome everyone to our hearing today, 
and especially Mr. Wittman and Mr. Connolly. We look forward to 
your words of wisdom.
    The Chesapeake Bay is certainly the largest estuary in the 
United States and is critical to the economy, environment and 
way of life for millions in the mid-Atlantic area. Covering 
some 64,000 square miles, the watershed spans parts of six 
States and the District of Columbia and is home to 16 million 
people. There are 150 major streams and tributaries in the 
Chesapeake Basin. The Bay is an important environmental feature 
in the region. It is home to millions of waterfowl and a vast 
array of fish, shellfish and other aquatic plants and animals.
    For the human population, the Chesapeake Bay provides 
millions of pounds of seafood, a wide variety of recreational 
opportunities, and is a major shipping and commercial hub. Two 
of the Nation's largest ports are on the Chesapeake Bay: 
Baltimore, Maryland and Hampton Roads, Virginia.
    Like many of our Nation's watersheds, the Chesapeake Bay is 
a working watershed, with multiple uses and increasing demands. 
Beginning with colonial settlement until today, land use 
activities and changes in the watershed have affected the 
health of the Chesapeake Bay. Public concerns about the health 
of the Bay have been raised since the 1930s.
    The deterioration of the Chesapeake Bay can be seen in a 
decrease in water clarity, a decline in oyster and crab 
populations, and a lack of underwater grasses. There are even 
areas of the Bay that are dead zones where there is not enough 
oxygen in the water to sustain life.
    The EPA says the major causes of the Bay's deterioration 
are excess nutrients and sediments coming from farmlands, 
wastewater treatment plants, and urban runoff. Septic systems 
and air deposition of emissions from power plants, cars and 
trucks also contribute to the degradation.
    In the next 25 years, an additional 3.7 million people are 
expected to be living in the Chesapeake Bay watershed. As more 
concrete and asphalt replaces forests and open spaces, the 
runoff of nutrients and sediments into the Bay will increase. 
However, it is this same growth and development that provides 
the economic stability for the region. All producers, including 
farmers, foresters, fishermen, rely on the water from the 
Chesapeake Bay watershed for their operations.
    Most farmers in the watershed have implemented conservation 
practices and nutrient management plans. If water quality goals 
are not being met, we have to be careful not to overburden 
producers with regulations that would yield little or no 
benefit. Before we create any additional mandatory programs, we 
have to ensure our producers remain competitive.
    Again, moving the goalposts for farmers and producers 
without knowing if this will improve water quality may 
ultimately lead to these lands being used for activities other 
than agriculture or forest. Those in the production industry 
are some of the best stewards of the Chesapeake Bay watershed. 
Forcing producers off the land will merely lead to more 
concrete, more asphalt. We may just be replacing one source of 
pollution for another.
    The Bay region must balance economic development with the 
need for clean water and a healthy environment. To do this, the 
region needs to be smart in how it grows in the future in order 
to minimize the impacts on the Bay.
    The Chesapeake Bay Program was created many years ago to 
address the degradation of the Bay. In 1987, the program was 
authorized formally by Congress in the Clean Water Act. Today, 
the program is a partnership of States, local entities and the 
EPA that directs and conducts restoration of the Chesapeake 
Bay.
    The Chesapeake 2000 Agreement set ambitious restoration 
goals to be met by 2010. These goals are now being rescheduled, 
but the States in the watershed are taking proactive steps to 
reduce nutrient loadings and increase enforcement. There have 
been some clear successes taking place in our efforts to 
improve conditions in the Bay. Billions of taxpayer dollars 
have already been devoted to bay cleanup. In some cases, this 
has improved wildlife habitat, bottom habitat, and the tideland 
wetlands.
    The Administration recently issued an executive order to 
expand the role of the Federal Government within the Chesapeake 
Bay watershed. The executive order calls for the creation of 
total maximum daily load for the Chesapeake Bay to regulate the 
limits on pollutants into the Bay. In addition, the executive 
order calls for a new strategy for meeting the goals of a 
restored Chesapeake Bay ecosystem.
    More still needs to be done. All of the program partners 
and stakeholders at the local, State and Federal levels need to 
make some hard decisions to realize a bay region that is both 
environmentally and economically sustainable.
    Today, we have assembled an excellent group of expert 
witnesses to help us consider the Chesapeake Bay Program as it 
is now up for reauthorization. I look forward to hearing from 
each of the witnesses on how we can improve the performance of 
the Chesapeake Bay Program and increase the accountability of 
the program and its partners to achieve the Bay restoration 
goals.
    And with that, I yield back, Madam Chair.
    Ms. Johnson of Texas. Thank you very much.
    The Chair now recognizes Mr. Cummings.
    Mr. Cummings. Thank you very much, Madam Chairwoman 
Johnson. I thank you for holding this timely hearing. And I 
also thank you for giving me an opportunity to participate.
    As a Representative of the Maryland Seventh Congressional 
District, I know what an extraordinary resource the Chesapeake 
Bay is to the State of Maryland, to the mid-Atlantic region, 
and indeed to this Nation.
    In the Administration of President Barack Obama, we finally 
have a President who recognizes that the Bay is truly a 
national treasure and who has made the restoration of the Bay 
among his top environmental preservation goals.
    On May 12, the President issued Executive Order 13508 which 
directs the Federal Government to significantly expand its 
leadership of the ongoing effort to restore the Bay. Earlier 
this month, the Federal Leadership Committee established by the 
executive order issued a series of reports, known as the 
Section 202 draft reports, that thoroughly reviewed the 
challenges faced by the Bay, as well as the steps needed to 
overcome these challenges as we work to renew the Bay.
    The Section 202 draft report makes clear the Chesapeake Bay 
is one, if not the most studied bodies of water in the world. 
We know what is harming the Bay. We understand in great detail 
how nitrogen, phosphorus and sediments enter the Bay from the 
runoff that flows across impervious surfaces, through eroding 
urban streams and aging storm sewers, across farm fields, from 
the discharges that are produced by wastewater treatment 
facilities, and that leach from septic systems and through 
atmospheric deposition.
    We also understand how controlling and reducing this runoff 
and these discharges is critical to enabling the complex 
ecosystem if the Bay is to thrive again.
    Finally, we also know that despite being informed by 
conclusive scientific evidence of what is wrong, the many 
voluntary agreements that have been signed with so much fanfare 
over the past quarter century have all failed to accomplish 
their shared objective of truly cleaning up the Bay.
    The Section 202 reports provide a stunning assessment, 
despite all the agreements, despite all the promises, despite 
all the best efforts, heartfelt slogans and expenditure of 
billions of dollars, the Bay's water quality in 2008 was still 
very poor.
    The Section 202(a) report is also clear about what must be 
done. It states ``to meet water quality goals for the Bay, 
nitrogen and phosphorus pollution must be reduced by 44 percent 
and 27 percent respectively, despite expected population 
increases of 30 percent between 2000 and 2030.''
    Ladies and gentlemen, despite the best intentions of the 
States, the voluntary agreements that have failed in the past, 
are simply not going to achieve this level of pollutant 
reductions in the years to come. And we need to be very clear 
on that. We need to be honest with ourselves on that. It is 
evident that we must begin implementing more formal structures 
to control pollutant loadings.
    However, it is also evident that current law does not 
provide all the authorities necessary to establish, implement 
and assess the results of such new control measures. As such, 
it is now critical that we in the Congress step up and provide 
the legal authorities the Environmental Protection Agency and 
the States need to take decisive action to restore the Bay.
    Frankly, we must also hold these entities accountable for 
the results of their efforts, and under the leadership of 
President Obama, we have a once in a lifetime chance to enact 
legislation that can finally set us on the path to restoring 
the Bay, an achievement whose true benefits will accrue to our 
children and grandchildren and generations yet unborn.
    I am honored to be working with Chairman Oberstar, 
Chairwoman Johnson and all of my colleagues on the 
Transportation Committee to craft such legislation. I look 
forward to today's hearing which will help inform the 
development of these provisions.
    With that, Madam Chairlady, I thank you again and I yield 
back.
    Ms. Johnson of Texas. Thank you very much.
    The Chair now recognizes Mr. Perriello.
    Mr. Perriello. Thank you, Chairwoman, Ranking Member.
    The Chesapeake Bay is an unbelievable treasure for our 
Country, for our region and certainly for the Commonwealth of 
Virginia. It is a treasure in terms of biodiversity, in terms 
of natural resources, and it's also a tremendous economic 
driver. But many of the sectors of our economy that help 
contribute to the problems in the Bay are also great treasures 
of ours and great economic drivers.
    The challenge facing the Chesapeake Bay is not one that's 
solved by great platitudes or ideological debates. It is really 
down to the problem solvers. It is down to the people who can 
get into the details. And to be honest with ourselves, given 
some of the things that have made great strides in the past and 
some of the things that have fallen short, we need to start 
with a simple question: What solves the problem? And then have 
the follow-up: What is the most efficient way to get there?
    What has been impressive in this debate across State lines, 
across county lines, is people who are deadly serious about 
solving this problem, who understand its importance not just to 
our environment, but to the long-term economic growth of our 
Commonwealth and beyond.
    So I think we see today with this hearing and with the 
efforts that have gone into those who are speaking to us today, 
that we see a serious set of people trying to answer those 
questions. We have sectors of our economy affected by this that 
are already in very difficult times. We need to find ways to 
make sure that we are not putting an undue burden on them.
    But we also know that there are certain biological issues 
that are not up for debate that need to be addressed, and 
without that, we will see these things fall apart.
    So the help of our neighbors will always be a top priority 
and a strong consideration as we hear the witnesses today. And 
I commend the Chairwoman for calling this hearing and for all 
those who are part of it, and look forward to getting into the 
nuts and bolts of how we actually solve this problem together.
    Thank you.
    Ms. Johnson of Texas. Thank you very much.
    Ms. Edwards?
    Ms. Edwards. Thank you, Madam Chairwoman, and to the 
Ranking Member as well.
    I share both the expressions of concern that my colleagues 
have made today, as well as all of our shared responsibility 
and desire to meet our shared responsibility for the protection 
of the Bay, and to balance the multiple uses of the Chesapeake 
Bay.
    I am someone who has, like many you know, fished, camped, 
hiked, and made recreational use of the Bay and its treasures. 
But I also recognize that we have many industrial and 
commercial sources that depend heavily on a healthy and 
thriving Chesapeake Bay and the entire watershed.
    I live here in the Washington, D.C. metropolitan area, and 
what we recognize in this area is that for those of us who live 
along the Potomac, Patuxent, and Anacostia Rivers that there 
are things that we are doing in terms of our transportation and 
economic development policies that, although we are hours away 
and miles away from the Bay itself, add deep and harmful 
contributions that are contributing to the ill health of the 
Chesapeake Bay.
    And so we have a responsibility in this region, but there 
is also a responsibility for industry. Along the Bay are 
agricultural and commercial industries that, while it is 
important for them to thrive, are contributing heavily to the 
agricultural runoff, for example, in the Bay that have led to 
its ill health.
    And I think as my colleagues have shared, you know, we have 
been doing a lot of studying of the Chesapeake Bay. I have been 
an advocate on Bay issues for about the 25 years that I have 
lived in the region. And so we do know what the causes are. We 
do have to have shared agreements and responsibilities that we 
can all meet and live up to-- and that we are willing to live 
up to.
    I think that it is really clear that despite all the 
resources that we have put into Chesapeake Bay protection and 
restoration, that we haven't been as successful as we would 
like to have been. And for the multiple States that share this 
bay as a resource and for this Nation, it is really imperative 
that we come together on a set of agreements that can be 
properly enforced and monitored so that, in fact, in 20 years 
we are talking about a really healthy Chesapeake Bay.
    We know that there are greater efficiencies that can be 
achieved in wastewater treatment, in transportation policy, in 
economic development policy, some of which seem very local in 
nature, but in fact, because they impact a region and they 
impact the Nation's largest estuary, actually may require some 
Federal intervention that we might not undertake in other 
areas.
    And so, Madam Chairwoman, I am grateful to be here today to 
listen to the testimony of so many of our experts, our 
colleagues who, like me, share responsibility for the 
Chesapeake Bay. And I look forward to us coming to some 
resolutions that will result in true health for the Bay and the 
maintenance of the Chesapeake Bay for future generations.
    Thank you, Madam Chairwoman.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Hare?
    Mr. Hare. Thank you, Madam Chair.
    I want to thank Chairwoman Johnson and Ranking Member 
Boozman for holding this very important meeting.
    The Chesapeake Bay is one of the Nation's most cherished 
natural resources. The Bay is the largest estuary in the 
Country. It is rich in wildlife and is home to over 3,700 
species.
    Over the past half century, the population of the Bay 
watershed has doubled. Increases in agricultural runoff, 
wastewater treatment facilities, new land development, and 
vehicle usage in the area have led to significantly high levels 
of pollutants such as excessive nutrients and sediment in the 
Bay. As a result, the Bay's water quality and ecosystems are 
under significant stress.
    To address this, in 1983 the States of Maryland, 
Pennsylvania, and Virginia, the District of Columbia, the 
Chesapeake Bay Commission and the EPA signed the first 
Chesapeake Bay Agreement, with the aim of protecting and 
restoring the Bay. The Bay Agreement resulted in the creation 
of the Bay Program, a partnership that directs and conducts 
activities towards the restoration of the Bay.
    Despite these coordinated efforts, the overall health of 
the Bay has been slow to improve, as indicated by the Bay 
Program in its assessment of the health of the Bay in 2008. It 
is clear that we have much more work to do.
    Madam Chairwoman, I believe that the Bay Program and its 
stakeholders need to reconsider what has been done or not done 
in the past and consider what it will do differently in the 
future to protect this vital natural resource. I look forward 
to hearing from our witnesses today and to learn how we can 
make improvements to carry out this mission.
    Thank you, Madam Chairwoman. I look forward to the 
testimony.
    Ms. Johnson of Texas. Thank you very much.
    Are there any other opening statements?
    The Chair now recognizes Mr. Perriello for introductions.
    Mr. Perriello. Thank you, Madam Chair, for allowing me to 
do the introductions.
    Our first witness today is Congressman Rob Wittman from the 
First District of Virginia: America's first district, home of 
Williamsburg and Yorktown. Mr. Wittman is a Member of the Armed 
Services Committee and has been a tremendous champion of our 
men and women in uniform, and particularly of the advancement 
of our naval fleet and other important priorities. He also 
serves on the Committee on Natural Resources.
    He has been a long-time champion of the Chesapeake Bay's 
vital economic and environmental importance. He comes from a 
marine biologist background and brings a tremendous amount of 
both substantive research and policy expertise to the equation. 
He has many degrees, including ones from UNC and Virginia Tech, 
two ACC schools that still know how to win a football game.
    And I, on a personal note, want to thank him for reaching 
out so much since I first got here in January. He extended a 
reach across party lines to work particularly on issues related 
to veterans and Virginia. It is a real pleasure to hear from 
him today.
    He will be followed by Congressman Gerry Connolly from 
Virginia's 11th District, a Member of the House Budget 
Committee, the House Committee on Foreign Affairs, and the 
House Committee on Oversight and Government Reform. He is a 
previous Chair of the Board of Supervisors in Fairfax County. 
He is the current President of the freshman class and the past 
president of the Virginia Association of Counties. He really 
brings a particularly important perspective, having seen local, 
State and Federal interaction on these issues.
    He has been a long-time advocate for children in the 
Commonwealth and across the country, and is an expert on 
foreign policy and other issues. So it is a pleasure to see his 
expertise here as well.
    We welcome you both and, consistent with Subcommittee 
practice, this panel will be adjourned following their 
testimony.
    That having been said, Congressman Wittman, please proceed.
    Ms. Johnson of Texas. Thank you very much.

  TESTIMONY OF THE HONORABLE ROB WITTMAN, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF VIRGINIA; GERALD E. CONNOLLY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Wittman. Thank you, Madam Chairwoman, Ranking Member 
Boozman. It is an honor and a privilege to be before you today, 
and I really appreciate your allowing me to discuss the issues 
before us about the Chesapeake Bay.
    As you know, the Bay is extraordinarily important to myself 
and to our constituents. It is an economic driver in Virginia 
and that is why I am glad to be here with you today.
    I am also pleased to be joined by my colleague from 
Virginia, Congressman Connolly. Gerry is also very dedicated to 
preserving and restoring the Chesapeake Bay. He knows how 
important it is not just to the State, but to the Nation. And I 
am glad to have worked with him already on a number of bay 
issues. He and I have a chance many times to talk about what we 
can collectively do to get our bay cleaned up. And I look 
forward to continuing to work on those issues.
    I would also like to recognize another colleague from the 
Commonwealth, Congressman Perriello, who has also been a true 
champion for the Bay, a real leader there, someone that reaches 
across the aisle and makes sure that we get things done in the 
best interests of the Commonwealth and the best interests of 
this Nation. I really appreciate your leadership and your 
efforts on behalf of the Chesapeake Bay.
    I am fortunate to represent Virginia's First District, 
which stretches from the exurbs of Washington, D.C. down to 
Hampton Roads. The First District includes many of the major 
tributaries of the Bay: the Potomac, the Rappahannock, the York 
and James Rivers. Just as the Bay has shaped the lives and 
livelihood of Virginia residents for centuries, the Bay 
continues to be a central part of life in our region.
    As the largest estuary in the United Stats, the Chesapeake 
Bay watershed is home to over 16 million people. The scope of 
the watershed is hard to imagine. The watershed encompasses six 
States and the District of Columbia, well over 1,000 local 
governments, 150 major tributaries, 100,000 streams and rivers, 
and over 11,600 miles of shoreline, plus thousands of plants 
and animal species.
    The Bay accounts for billions of dollars in economic and 
recreational revenue, not to mention it is the site of major 
ports and military bases.
    I believe that there is a deep sense of frustration in the 
Chesapeake Bay watershed about the progress we have made to 
restore the Bay. Yes, we have had successes. However, with all 
the Federal, State, local and private partner investment, we 
would all like to see more accomplishments.
    With that said, I am encouraged by the renewed attention 
and dedication towards restoring the Chesapeake Bay. The 
Chesapeake Bay Action Plan, ongoing State efforts, and the 
Administration's Chesapeake Bay Executive Order all see to 
improve bay cleanup efforts, and I applaud those efforts. They 
are long overdue and the time is now.
    Across the Bay, these efforts are shaping and will continue 
to shape restoration efforts. Today's focus on the 
reauthorization of the Chesapeake Bay Program is another 
important component of this complex environmental restoration 
effort. I would like to outline some of the key principles that 
I would like to encourage the Committee to consider as Congress 
continues to evaluate and plan for ongoing restoration 
activities in the Chesapeake Bay.
    First, there must be performance-based measures to assure 
that dollars currently spent on bay restoration activities are 
producing results, and that efforts are being monitored and 
adapted to meet bay goals.
    I encourage the Committee to consider incorporating H.R. 
1053, the Chesapeake Bay Accountability and Recovery Act, 
legislation I have authored into any bay program 
reauthorization. H.R. 1053 would implement and strengthen 
management techniques like cross cut budgeting and adaptive 
management to ensure we get more bang for our buck and continue 
to make progress in bay restoration efforts.
    Both techniques will ensure that we are coordinating how 
restoration dollars are spent and making sure that everyone 
understands how individual projects fit into the bigger 
picture. And in that way, we are not duplicating efforts, 
neither are we spending money in a duplicative way, nor do we 
need to be looking at issues that are at cross purposes. So 
this will allow us to make sure that we are avoiding that 
duplication in those efforts that cross purposes.
    The Chesapeake Bay Accountability and Recovery Act would 
require the Office of Management and Budget, in coordination 
with State and Federal agencies involved in the Bay, to report 
to Congress on the status of Chesapeake Bay restoration 
efforts. That way, Congress is kept up to date on an annual 
basis, and just like anything else, we can make changes 
accordingly.
    My bill would also require the EPA to develop and implement 
an adaptive management plan for Chesapeake Bay restoration 
activities. Adaptive management relies on rigorous scientific 
monitoring, testing and evaluation and the flexibility to 
modify current management policies and strategies based on 
changing conditions. Just like a business plan, as the 
environment around you changes, your business plan changes. 
This would allow our plan to clean up the Bay to also change.
    Cross cut budgeting and adaptive management should be key 
components of the complex restoration activities involved in 
the Chesapeake Bay restoration effort.
    Second, I would also like to encourage the Committee to 
consider alternative options and incentives that don't force 
top down regulatory requirements. I recognize that we need both 
carrots and sticks to make complex environmental projects work, 
and I realize that the command and control approach does have a 
place. But as a former small-town mayor, I know that localities 
often struggle to meet State and Federal mandates with 
inadequate financial and technical resources. We should 
continue to look for ways to create incentives and provide the 
resources for States and localities to meet bay restoration 
goals.
    Additionally, I believe we should encourage innovative and 
out of the box solutions to cleaning up the Bay. New technology 
and cutting edge research should be encouraged to meet the 
Bay's pressing needs.
    For example, promising technology exists that could turn 
chicken litter into energy and reduce one of the Bay's most 
significant pollutants. This is just one of many technological 
innovations that could improve the Bay.
    In addition to technologies, we should also embrace other 
innovative solutions. In the Rappahannock River basin, a group 
of my constituents is developing a private sector-led 
marketplace for environmentally friendly products that will 
help to protect and restore the Bay. I would encourage the 
Committee to help localities and embrace technology and 
innovation to clean up the Bay.
    Finally, I want to mention two things that I don't believe 
belong in legislation reauthorizing the Chesapeake Bay Program. 
I would encourage the Committee not to include language that 
would impose any additional regulations or restrictions on non-
native oysters or commercial menhaden harvests. I am opposed 
and would be very concerned about any language that would 
undermine the Army Corps of Engineers' final environmental 
impact statement on oyster restoration, and I am also strongly 
opposed to any language that would prohibit commercial fishing 
of menhaden.
    Peer-reviewed Atlantic States Marine Fisheries Commission 
scientific stock assessments are very clear and the Atlantic 
menhaden populations are healthy and they are not being over-
fished. We want to resist the temptation to replace fishery 
science with politics.
    In my mind, reauthorization of the Bay Program is not the 
appropriate venue to address fisheries management policy 
decisions. We ought to make sure that we use the existing 
avenues for that in both the Atlantic States Marine Fisheries 
Commission and the Mid-Atlantic Councils.
    Thank you again, Chairwoman Johnson and Ranking Member 
Boozman, for the opportunity for me to testify today, and I 
stand ready and willing and able to support and work with you 
to continue efforts to restore our national treasure, the 
Chesapeake Bay.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Connolly?
    Mr. Connolly. Thank you so much, Chairwoman Johnson and 
Ranking Member Boozman, and thank you for your thoughtful 
statements, coming from Texas and Arkansas. I really appreciate 
what you both had to say about the importance of the Chesapeake 
Bay as the number one estuary in all of the United States.
    Frankly, what we do here, as Mr. Perriello indicated in his 
gracious opening remarks, what we do here in the Bay has 
implications for lots of other important watersheds throughout 
the United States-- so hopefully we can get it right.
    And I want to thank, in particular my friend, Elijah 
Cummings, for his leadership. I know he is getting ready to 
introduce a companion bill to the Senate bill, and I look 
forward to working with him on that.
    There are three main sources of pollution for the Bay: 
sewage treatment plants, agriculture and stormwater runoff from 
impervious surfaces, largely generated from urban and suburban 
communities.
    Over the past 30 years, we have made remarkable progress 
reducing pollution from two of those three sources. We are 
retrofitting sewage treatment plants in my county, for example, 
that will only have three milligrams per liter of nitrogen, a 
six-fold decrease from the 18 milligrams per liter in the 1970s 
when algae blooms decimated large swaths of the Potomac and 
Occoquan Rivers.
    We have reduced nitrogen pollution from the agricultural 
sector, from 150 million pounds in 1985 to 99 million pounds 
today. This is thanks largely to Congress' investment in the 
Natural Resource Conservation Service and other farm 
conservation programs.
    Despite these achievements, however costly, the overall 
health of the Bay, as has been noted, has not markedly 
improved, and it is only at 28 percent of its colonial health, 
according to the Chesapeake Bay Foundation. According to the 
Environmental Protection Agency, runoff from impervious surface 
areas is the only pollution source going into the Bay that is 
increasing.
    We have made progress. We haven't solved the problem, but 
we have made progress on agriculture. We have made progress on 
wastewater treatment. We have actually lost ground on the third 
source of pollution, impervious surface stormwater.
    Between 1990 and 2000, population in the Bay grew 8 
percent. You talked about this, Mr. Boozman. But impervious 
surface at that same time grew 41 percent. So if we in fact 
grow by as much as you predict, Mr. Boozman, of 3.5 million 
additional souls in the watershed, the impervious surface 
growth is going to be many multiples of that.
    This dramatic growth in impervious surface led to a 25 
percent increase in nitrogen pollution from stormwater runoff, 
a 9.1 million pound annual increase. If we have made 
substantial reductions in two of the three sources of 
pollution, and the third source is growing, and the Bay's 
health is not improving, one might and maybe must deduce that 
bay recovery is contingent on finally reducing the third major 
source of pollution: stormwater from impervious surfaces.
    H.R. 3265, the Chesapeake Bay Restoration Act, would reduce 
this pollution from stormwater runoff by establishing bay-wide 
performance standards for stormwater management. It would 
require that greenfield development, sites that are 5 percent 
impervious or less, maintain pre-development hydrology by 
infiltrating evaporation or reusing 95 percent of stormwater 
runoff. These are techniques deployed in the watershed today, 
but not uniformly.
    This is the same standard that Federal facilities must meet 
already, under the 2007 Energy Independence and Security Act. 
So we are not asking anybody to do anything more than we 
already require of ourselves as a Federal Government.
    This standard would be implemented under the existing 
municipal separate storm sewer system, MS-4 permit, which is 
already administered by the EPA. It would extend MS-4 permits 
to all localities in the Bay watershed so there is a level 
playing field. This would ensure that we do not inadvertently 
encourage sprawl by having higher standards in urban areas than 
suburban areas.
    It would provide funding for localities to help administer 
these MS-4 permits and create 75 percent matching grants for 
localities to construct what is called low impact development 
strategies and techniques. I have one here today. This is a 
pervious block of concrete, allowing water to flow through it. 
We also have pervious pavers, for example: bricks that do the 
same thing. There are lots of techniques we can use under the 
rubric LID that can make a difference, and I am very cognizant, 
as somebody who spent 14 years in local government, of what my 
friend Rob Wittman said: we don't want to put undue burdens on 
localities. That is why under H.R. 3265 the federal matching 
grant program would pay up to 75 percent.
    This bill would also require Federal facilities to develop 
plans to maximize forest cover, which would dramatically 
reduce, of course, stormwater runoff. The Federal Government 
owns 7 percent of the entire land in the watershed, so we can 
have a significant impact in terms of Federal policies in 
trying to address this issue.
    I am pleased to say that the legislation has been endorsed 
by the Coalition for Smarter Growth, the Metropolitan 
Washington Council of Governments, American Rivers, Journey 
Through Hallowed Ground Partnership, the Land Trust of 
Virginia, the Choose Clean Water Coalition, including the 
Chesapeake Bay Foundation, the National Wildlife Federation, 
the Piedmont Environmental Council, and over 80 other 
environmental groups from the watershed.
    Senator Cardin's discussion draft of the Chesapeake Bay 
Reauthorization incorporates much of the language in my bill, 
H.R. 3265, and I am very pleased about that. I look forward 
again to working with Elijah Cummings and doing the same here 
in the House.
    I encourage the Subcommittee to incorporate these 
provisions in your Chesapeake Bay reauthorization legislation 
for the reasons I have stated. And I thank you so much again 
for caring about the Bay and for holding this important 
hearing.
    Ms. Johnson of Texas. Thank you very much.
    You have reminded me that I should make sure that everyone 
knows to try to stay within five minutes.
    I feel the passion and I thank you very much for coming. We 
are loaded with passion on this Committee for the Chesapeake.
    Our distinguished Chairman of the Full Committee has come 
in. Thank you for testifying. You can be excused. We don't ask 
our Members questions.
    Mr. Oberstar. Not quite so quickly, Madam Chair. I would 
like to thank Representative Wittman for carrying through on a 
conversation we had during the State Revolving Loan Fund 
legislation. The gentleman offered an amendment with a little 
perfecting language, which we accepted, relating to the 
Chesapeake Bay, and I invited him, Madam Chair, to become more 
engaged in the issue. He was a new Member, a new energy, and he 
has followed through, and I appreciate that.
    And Representative Connolly, who's got a long history of 
engagement in local government and understands the issues and 
has a commitment to the Chesapeake Bay, it is very commendable 
that both of you stand shoulder to shoulder on this issue.
    This is not just an issue, though, for Virginia, Maryland, 
Delaware. It is for Virginia, Maryland, Delaware, West 
Virginia, Pennsylvania, the District of Columbia, New York 
State, the whole area watershed that contributes to this bay, 
its water and its pollution. The problems are many-faceted and 
of many origins.
    In a roundtable that I organized and that Ms. Johnson, Mr. 
Cummings, Ms. Edwards, Republican Members of the Committee 
participated in, we heard that upstate New Yorkers are likely 
to say, what is the Chesapeake Bay to me? I don't go there. I 
don't fish there. I don't collect oysters from the Bay, or 
crabs. But the migratory waterfowl that come from the inland 
reaches of the watershed use that bay. And the nitrogen that is 
put on the lawns in upstate Pennsylvania and upstate New York 
and in West Virginia all makes its way into that watershed, and 
from the watershed into the Bay.
    And this is the most important estuary in the world. 
Estuaries are those unique meeting places of salt and fresh 
water where new life forms are created. And by the destruction 
of the water quality, we are inhibiting and limiting and 
preventing creation of new life forms and the evolution that 
this rare ecosystem provides.
    It is the common heritage of all Americans, this, Puget 
Sound, and the Great Lakes and the coastal area in the New 
Orleans, Texas, Mississippi region. All those Gulf of Mexico 
states, the pollution they experience comes from 11 States. It 
is going to take all those States engaged to protect and 
preserve the Mississippi and its delta. It is the same for the 
Chesapeake Bay. At this roundtable gathering, I asked Mr. 
Cummings, who was here a moment ago, but I asked him to 
coordinate an ad hoc group of Members from both sides of the 
aisle of our Committee, and from beyond the Committee, to 
develop a real action plan. We have studies stacked 10 feet 
high on the Chesapeake Bay. It is action time now. That is the 
purpose of this hearing to find out what the actions are that 
we need to take.
    I agree with the gentleman from Virginia, Mr. Wittman, who 
said fisheries regulation should not be the subject of such 
legislation. We have fisheries councils up the Eastern 
seaboard, in the New England area, fisheries councils in the 
Pacific Northwest, fisheries councils in the Southeast, that 
take are of those issues.
    And the fisheries management of the Chesapeake Bay is 
similar. There are mechanisms to deal with that. But if we 
don't get the pollution out of the contributing tributary 
waters, there won't be any fisheries to manage or to regulate. 
We will simply have red scum and green scum and a lifeless bay.
    Now, I want to see this bay revived, and I want those life 
forms, like crabs, oysters, and fish, to thrive, not just 
survive. So we all need to work together and heed the concerns 
that both of you have reflected, and Mr. Connolly in 
particular, the impervious surfaces.
    The U.S. Coast and Geodetic Survey, 35 years ago, did an 
analysis in California for the State. The survey was pursuing 
the issue of why were we having so much rainfall? Why was there 
so much flooding in our ditches, and in our stream beds? And 
the Coast and Geodetic Survey sent a team of researchers out to 
measure rainfall and found it was the same in the '70s as it 
was in the '30s. The amount of rainfall hadn't changed. What 
had changed was impervious surface. The runoff from parking 
lots and roadways had increased the runoff into streams and 
therefore increased the flooding problem.
    So those are things that we have to do. We have to preserve 
our wetlands, which are the shock troops against pollution. 
They filter the waters of their harmful forms. So this is a 
beginning, one of several, but I intend this, and I know that 
Chairwoman Johnson does as well, and Mr. Boozman, to be a 
serious sustained and successful effort.
    Mr. Connolly. Thank you, Chairman Oberstar, and thank you 
for your passion.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Wittman. Thank you, Mr. Chairman. Thank you very much.
    Ms. Johnson of Texas. On our second panel, the starting 
witness will be Mr. Fox, because I know he has to leave early. 
He is EPA's Senior Advisor to the Administrator, for the 
Chesapeake.
    Our second witness is Maryland's Secretary of the 
Environment, Ms. Shari Wilson. Welcome back to our 
Subcommittee, Ms. Wilson.
    Following her is Secretary Preston Bryant from Virginia's 
Department of Natural Resources.
    And our fourth witness is Director George Hawkins from the 
District of Columbia Department of the Environment. And I 
understand that you will be joining the D.C. Water and Sewer 
Authority shortly, so good luck with your new position. I don't 
know which is better for you, but we will enjoy working with 
you in that capacity nevertheless.
    Our next witness today is Pennsylvania State 
Representative, Mr. Michael Sturla.
    And our final witness on this panel is Virginia Delegate 
John Cosgrove. Mr. Cosgrove is also Chair of the Chesapeake Bay 
Commission.
    We are looking forward to your testimony. Your full 
statements will be placed in the record, and we ask that you 
try to limit your testimony to five minutes, if possible, as a 
courtesy to others.
    Mr. Fox, you may proceed.

      TESTIMONY OF J. CHARLES FOX, SENIOR ADVISOR TO THE 
 ADMINISTRATOR, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY; 
      SHARI WILSON, SECRETARY, MARYLAND DEPARTMENT OF THE 
 ENVIRONMENT; L. PRESTON BRYANT, JR., SECRETARY, OFFICE OF THE 
  SECRETARY OF NATURAL RESOURCES, OFFICE OF VIRGINIA GOVERNOR 
  TIMOTHY M. KAINE; GEORGE S. HAWKINS, DIRECTOR, DISTRICT OF 
  COLUMBIA DEPARTMENT OF THE ENVIRONMENT; P. MICHAEL STURLA, 
REPRESENTATIVE, PENNSYLVANIA HOUSE OF REPRESENTATIVES; JOHN A. 
  COSGROVE, DELEGATE, VIRGINIA HOUSE OF DELEGATES, AND CHAIR, 
                   CHESAPEAKE BAY COMMISSION

    Ms. Fox. Thank you, Madam Chairwoman.
    This is quite a pleasure to be here today in a room filled 
with so many Chairs and Chairwomen. It is quite an impressive 
turnout. And to all the Members of the Chesapeake Bay 
delegation, thank you very much for all your leadership here.
    President Obama and Administrator Jackson are committed to 
a new era of Federal leadership, one that is characterized by 
increased accountability and performance to help protect and 
restore Chesapeake Bay and its tributaries to a healthy 
condition.
    On May 12, President Obama signed Executive Order 13508 
creating a Federal Leadership Committee to strengthen and align 
the capabilities of all Federal agencies. The order directed us 
to prepare seven draft reports within 120 days addressing key 
challenges affecting the Chesapeake Bay. Last week, two weeks 
ago, the Federal Leadership Committee received the seven draft 
reports for review.
    The executive order's draft report on water quality may be 
of greatest interest for today's hearing. It defined three 
principal mechanisms to achieving water quality objectives in 
Chesapeake Bay and its tributaries: first, to create a new 
accountability program to guide Federal and State water quality 
efforts; second, to initiate new Federal rulemakings and other 
actions under the Clean Water Act and other authorities; and 
third, to establish an enhanced partnership between USDA and 
EPA to implement a Healthy Bay Thriving Agriculture Initiative.
    The proposed new accountability program builds on existing 
Clean Water Act authorities to set new expectations for State 
and Federal programs for reducing nutrient and sediment 
pollution, including EPA's intention to rely heavily upon 
enforceable or otherwise binding programs in approving State 
implementation plans.
    We have also proposed to identify a number of potential 
consequences that we may use in the event that jurisdictions do 
not implement effective restoration programs.
    The draft water quality report also cites potential changes 
in regulations under the Clean Water Act to reduce pollution 
from concentrated animal feeding operations, municipal 
stormwater pollution, and from new growth.
    With these rulemakings, EPA would significantly strengthen 
or clarify Federal requirements that would further limit 
nutrient and sediment discharges to the Chesapeake Bay.
    In addition to the rulemakings, the draft water quality 
report contains recommendations for implementing a compliance 
and enforcement strategy, as well as a joint partnership 
initiative with USDA.
    The six other reports focus on conserving landscapes, 
reducing pollution from Federal facilities, targeting Federal 
financial assistance and technical assistance, adapting to 
climate change, improving science and monitoring, and improving 
protection of living resources.
    Over the next 60 days, the Federal Leadership Committee 
will evaluate the recommendations and consult with the States 
and the District of Columbia. We are in the process of 
developing a draft strategy which, along with the seven 
reports, will be formally presented for public comment later 
this fall.
    I would like now to turn to the issue of reauthorizing the 
Chesapeake Bay Program under Section 117. In general, we look 
forward to working very closely with you to improve the 
protection of the restoration programs for the Bay and its 
tributaries, and the Administration strongly supports your 
efforts in this regard.
    We are hopeful that any reauthorization of the program will 
be supportive of and consistent with the goals of the executive 
order, as well as those of the Chesapeake Bay Executive 
Council, specifically, the no later than 2025 end date for 
getting practices in place that will protect water quality.
    As you know, the fundamental challenge for the Bay's water 
quality is reducing runoff pollution from urban and suburban 
and agricultural lands. The latter is responsible for roughly 
half the nitrogen, phosphorus and sediment flow into the Bay. 
The former is a smaller, but both significant and growing 
source of the Bay's pollution.
    Our Nation's modern history includes several successful 
examples of pollution control from similarly diffuse sources. 
The Clean Air Act is probably the best example. It has produced 
significant improvements in air quality, despite sizable growth 
in population, energy consumption, and vehicle miles traveled. 
As we think about ways to further protect the Bay, we might 
want to look at a range of accountability mechanisms, including 
many similar to those available in the Clean Air Act.
    We look forward to working with you in the days and months 
ahead. Thank you very much for this opportunity, and I 
appreciate greatly your respect for my unique schedule today.
    Ms. Johnson of Texas. Thank you very much. We will be in 
touch.
    Mr. Fox. Thank you, Madam Chair.
    Ms. Johnson of Texas. Secretary Shari Wilson, Maryland 
Department of Environment, Baltimore.
    Ms. Wilson. Good afternoon, Chairwoman Johnson, Ranking 
Member Boozman, Chairman Oberstar, and Members of the 
Subcommittee. It is a pleasure to be here, and we can't thank 
you enough for the time you are devoting to this important 
topic.
    I also want to thank Congresswoman Edwards for her 
continued advocacy for the Chesapeake Bay, and in particular 
for your efforts to make sure that environmental protection and 
public health protection extend to all Marylanders.
    And to Congressman Cummings, you are the most forceful and 
articulate advocate for connecting the health of the Chesapeake 
Bay to all of Maryland, and we greatly appreciate it, sir.
    The State of Maryland is greatly encouraged by President 
Obama's executive order. The level of priority and the Federal 
cooperation called for in that executive order is simply 
unprecedented. And it was stated earlier that we have a unique 
opportunity, a once in a lifetime chance, and in fact that is 
the case, we believe.
    In Maryland, under Governor O'Malley's leadership over the 
past two and a half years, we have increased our environmental 
enforcement actions by 34 percent, that is from 2007 to 2008. 
For new development, we have increased and improved controls 
for stormwater. In other words, for new development we require 
controls now that will basically have runoff equate to woods in 
good condition, a very high bar.
    For our larger municipal areas, we have initiated a new 
round of permitting that has an unprecedented level of retrofit 
requirements, in other words, retrofitting impervious areas 
that were developed long before modern stormwater controls were 
put in place. For the first time ever, we have requirements in 
place for the management of poultry litter. As you all well 
know, we have plans underway to upgrade 67 of the wastewater 
treatment plants in Maryland, accounting for 95 percent of the 
flow, with state of the art enhanced nutrient removal 
technology, and that is completely paid for by Maryland 
citizens as they pay a fee on their monthly water and sewer 
bill.
    All of that follows the 2006 Healthy Air Act, which is one 
of the most progressive controls for power plants in the 
Country, including for nitrogen reduction, and almost a decade 
earlier, a requirement that Maryland farmers use nutrient 
management plans.
    These actions were all difficult. They have all been 
controversial, and yet they are essential for the Bay's 
restoration. Even with those actions, we know more is needed. 
In May, Governor O'Malley, along with other governors in the 
watershed, committed to more than doubling nutrient reduction 
efforts. And as you consider reauthorizing the Chesapeake Bay 
Program, we would respectfully offer the following for your 
consideration.
    First, as has been mentioned, it is essential that we get a 
firm deadline in place that is required by statute. It is 
necessary to have this and it has been missing with the Bay 
restoration for some time.
    Second, we believe it is very important to have binding and 
enforceable implementation plans and ramifications if those 
plans are not either effective or they do not reach their goal. 
Chuck Fox referred to the Clean Air Act. That provides a model 
that has shown us that it can be successful as evidenced by 
ozone reductions in Maryland, for example. It is a planning 
process so that everybody knows the rules of the road, and the 
plan ahead, and it has worked effectively. So we would 
respectfully suggest that that model be considered.
    Third, funding for both the Bay Program and the regulatory 
programs under the Clean Water Act. We understand that the 
funding level for the Chesapeake Bay Program has been 
approximately $20 million annually, although a $40 million 
authorization is in place. And we would respectfully urge 
increasing the funding to the authorized level.
    We also have the regulatory programs in place at the State 
level to implement these new measures that are needed. But 
quite candidly, the strength of those programs has been 
crumbling around us over the past several years, and that is 
before the current fiscal situation that we find ourselves in. 
It is essential that these regulatory programs be adequately 
staffed so that we can tackle the job at hand.
    Fourth, it was mentioned earlier the need for effective 
management. In Maryland, we have used Governor O'Malley's 
BayStat process. It is essentially a real-time management tool 
aimed at redirecting resources to the places where the 
scientists tell us that we will get the best return on nutrient 
reduction for each dollar invested. It has been very effective 
for us. For example, we have redirected funding for cover crops 
for farmers, and we suggest that we all need to partake in a 
similar kind of effort.
    And last, it is hard to talk about the Bay restoration 
without mentioning and putting in a plug for the one action, 
the single largest action we can take for the Bay restoration, 
and that is the upgrade of the Blue Plains Wastewater Treatment 
Plant. It currently discharges 5.5 million pounds of nitrogen 
into the Bay annually, and that can be reduced by at least 4 
million pounds.
    In conclusion, we are very pleased that you are holding 
this hearing today, and we look forward to working with you in 
your future endeavors, and would be pleased, of course, to 
answer any questions that you may have.
    Thank you very much.
    Ms. Johnson of Texas. Thank you very much.
    Secretary L. Preston Bryant, Jr., the Office of the 
Secretary of Natural Resources, Office of Virginia Governor 
Timothy Kaine.
    Mr. Bryant. Madam Chairman, Mr. Boozman, Chairman Oberstar, 
on behalf of Governor Kaine, thank you for holding this hearing 
and thank you for your leadership on the Bay challenges. It is 
clear from your opening remarks you have a good grasp of the 
challenges facing those of us at the State level.
    My remarks that have been submitted give a brief history of 
some of the most recent investments that Virginia has made, so 
I won't go into those other than to say that like Maryland, we 
have invested just in the last four years more than $1 billion 
of State resources, principally into wastewater treatment 
plants, more than 60 facilities, and in record investments with 
our agricultural community. That $1 billion does not include 
what the local governments have added as their contribution or 
what our agricultural community has done to step up their 
efforts as well.
    I would like to address sort of three things this morning: 
one, to tell of some recent actions by the Chesapeake Bay 
Executive Council; second, to say a word about the importance, 
as we see it, of the Federal Government being actively involved 
in a partnership with us; and then third, the items that you 
will see in my remarks, I have 10 items that should be 
considered, we believe, in the reauthorization bill.
    First, the Chesapeake Bay Executive Council is comprised of 
the Governors of Virginia, Maryland and Pennsylvania, the EPA 
Administrator, the D.C. Mayor and the Chairman of the 
Chesapeake Bay Commission. Governor Kaine of Virginia currently 
chairs the Council.
    A year ago, the Council did something fairly unique, if not 
even impressive, and that is they admitted failure. They 
admitted failure on some fronts, while certainly acknowledging 
that we have made great progress over the last three decades. 
We also had to acknowledge that there have been three or four 
multi-state compacts with targets that we have failed to meet 
many of them, the most recent being some of our 2010 deadlines.
    Governor Kaine, Governor O'Malley, Governor Rendell and 
others acknowledged that we can do getter. As such, what they 
did is they changed approach. Instead of drafting long-term 10-
year plans and not knowing until the very end whether you are 
successful, they changed approach and said we are going to 
target two-year milestones at a time, culminating in an end 
date.
    It is much more transparent and it is much more 
accountable. The stakeholders watching will know immediately 
how we are doing. So I will say more about that shortly.
    Let me also say that we acknowledge as well that there is a 
new day dawning for the Chesapeake Bay, kicked off principally 
by President Obama's executive order. It is historic, and we 
welcome that partnership. And Chuck Fox with the EPA has been a 
real leader in helping us.
    In terms of the bill that is before us, there are 10 items, 
the Bay authorization bill, there are 10 items that you will 
see in my remarks that I recommend you consider to be included.
    First, this financial assistance. Again, a State-Federal 
partnership. The current draft has $1.5 billion principally for 
urban and suburban runoff. And while we acknowledge that is 
certainly important, we also must acknowledge that the 
jurisdictions making up the watershed, some are rural, others 
are urban in nature, and perhaps we need to look more broadly 
at that very, very significant investment.
    Second, we hope that the bill will define what we call 
@@reasonable insurance.'' As the EPA is holding States 
increasingly accountable, the EPA is also asking that we 
reasonably assure them that we have the necessary tools and 
resources and capacity to meet the targets. What has been a 
challenge, however, and all jurisdictions would agree to this, 
is properly defining ``reasonable assurance.'' And so we would 
seek your leadership in helping us, working with us 
cooperatively, to help further define ``reasonable assurance.''
    Third, we hope that the bill will recognize what the 
Chesapeake Bay Executive Council has adopted as a new 
methodology. That is, instead of long-term goals, recognize the 
value of the short-term milestone approach. Again, we think it 
is much more accountable and transparent, and that is a 
consensus among the jurisdictions in the watershed.
    Fourth, we necessarily recognize that should there be 
increased Federal funds, that there also ought to be some 
consequences should we fail. If we fail to meet the targets 
expected of us, we expect there to be some consequences coming 
from the EPA.
    At the same time, we also trust there will be some 
flexibility built in to those consequences. For example, there 
are certainly unforeseen circumstances. No one would have 
predicted five or even two years ago that our robust economy 
would be teetering on collapse. So we must take into 
consideration some of the unforeseen circumstances as you hold 
us accountable.
    We also recognize that there are many sectors, as has been 
mentioned this morning, that are at play. Wastewater, 
agriculture, air, homeowners all need to be part and parcel of 
this. I would echo Secretary Wilson and Governor O'Malley that 
there should be a deadline. As we are working on two-year 
milestones, culminating in a deadline, I would suggest that the 
watershed jurisdictions have consensus on what that deadline 
should be. They have agreed that it should be ``no later than 
2025.'' Certainly, that language doesn't preclude earlier 
success, so we hope the reauthorization bill will reflect that 
language.
    And then I will also, my time is running out, but you will 
see that there are other recommendations as well, and I will 
just finish on one, and that is some expanded authority. A 
large portion of the nutrient sediment pollution that is 
currently entering the waters originates from sources that 
really aren't currently regulated. That is air, some urban 
runoff, and then also some areas of agriculture. So again, 
following that all sectors should be at the table, we hope that 
you will help us on that respect as well.
    So with that, Madam Chairman, I will commit my remaining 
remarks to you and the staff, and we thank you for holding this 
hearing.
    Ms. Johnson of Texas. Thank you very much.
    I want to announce that Congresswoman Norton sent word that 
she had a conflict in her schedule and could not make it today, 
and that Director George Hawkins from the District of Columbia, 
Department of the Environment, will very capably represent her 
views today.
    Mr. Hawkins?
    Mr. Hawkins. Thank you. Good afternoon, Chairwoman Johnson, 
Mr. Boozman, Chair Oberstar.
    I am delighted to be here today to speak about the 
Chesapeake Bay. I am the Director of the District Department of 
the Environment. I want to offer greetings from the Mayor of 
Washington, D.C., Adrian Fenty. I am delighted to speak on 
behalf of Congressman Norton, who is a great friend and ally as 
well.
    And I want to directly answer the question you asked, Mr. 
Oberstar, at the beginning, which is: Why would someone in New 
York or Pennsylvania want to undertake some of these steps if 
they are not near the Bay? Because the answer to that question 
is the same answer why Mayor Fenty I so committed to protecting 
here in Washington, DC.
    Of course, we are closer to the Chesapeake than many people 
in New York and Pennsylvania, but that is not fundamentally why 
Washington, D.C. is committed to this. The Anacostia, the Rock 
Creek and the Potomac run through the middle of our city. We 
know that every step that needs to be taken to protect the 
rivers in our city for the welfare and benefit of all of us who 
live and reside here are the same steps that will also protect 
the Chesapeake.
    But we do not sit here primarily about the Chesapeake as 
much as much as we are completely committed. It is the rivers 
in our jurisdiction where our people live that we are concerned 
about. And we believe exactly these steps will secure the 
health and welfare of those water bodies here in the District, 
as well as the Chesapeake Bay, and that goes the same for New 
York, Pennsylvania, West Virginia, Maryland, Virginia and all 
the jurisdictions.
    We are organizing our comments today with respect to the 
Senate bill. Obviously, the House will be doing what your good 
judgment suggests, but we have used that to organize our 
thoughts, what we favor, some questions we have, as well as 
some improvements that we might suggest you consider.
    Fundamentally, Chair Oberstar you will remember, and Mr. 
Cummings, I have two primary points that I have made every time 
I have testified. Both of those aspects are in the Senate 
draft. One is the SIP plan from the Clean Air Act, which is now 
called the tributary implementation plan, a TIP, instead of a 
SIP. It would be a bubble demonstrating how much a jurisdiction 
would need to reach. There would be flexibility to reach goals 
within it. That is a good idea and should be maintained.
    That piece, along with a second, which is bottom line 
stormwater standards that must be applied across jurisdictions, 
working together, is exactly some of the best pieces of 
environmental legislation today. Those are two primary issues 
that we are concerned about, along, of course, with funding 
capability to make sure the work can be done at hand.
    Very specifically, those pieces that we support in the 
draft, we like codifying the Chesapeake Bay executive order, a 
bay-wide TMDL, and the tributary implementation plan, as I have 
just mentioned. Those are very strong.
    Second, we are very much in favor of the inclusion of 
agriculture and animal feedlot operations and the watershed 
permit approach; air deposition, which is up to one-third of 
the deposition for nitrogen. Both of those are included in the 
draft we support.
    We are thrilled to see $1.5 billion authorized for urban 
and suburban stormwater. There is no question that that is an 
area that needs significant consequence. And because of the 
cost of retrofitting existing development, you need look no 
farther than outside the doors of this building. We know that 
without that funding, we are likely not to succeed.
    And of course we support stewardship grants for States. 
Really, so much of this work is going to local governments who 
will be implementing improvements to their building codes and 
their development plans in order to implement the nuts and 
bolts of these proposals.
    Some questions we have in the second category. In the 
draft, there is a cap and trade proposal for nitrogen and 
phosphorus. We are very curious to see more about that idea. It 
is in Section 10. It is very short at the moment. Is that 
optional? Is it mandatory? How would it work? We do like the 
idea that if someone is in significant noncompliance, they not 
be eligible for trade or that you cannot cap and trade if you 
are in an area where a trade would cause a water quality 
problem, but that, I believe, needs to be more fleshed out.
    A second point we would like to find out more about. We are 
glad that the USGS and NOAA and various river basin commissions 
are involved in monitoring under the draft proposal. We do also 
support that it is divided between title and non-title 
monitoring.
    The question we have is up until now, the Chesapeake Bay 
Program has provided critical monitoring and modeling for us at 
the State level to do this work, which will be even more 
important with two-year milestones. That is not clearly spelled 
out and we would like to see it be so.
    The third area of where we might look for some 
strengthening of the draft bill. One I have mentioned before, 
you did note that I will be joining the Washington, D.C. Water 
and Sewer Authority shortly. I also want to note that Jerry 
Johnson, my predecessor, is here in the room. I very admire 
greatly what he has done in his capacity and is now working at 
WSSC, so we will be hand in hand in the days ahead, but he 
deserves congratulations for the extraordinary work he did on 
our behalf at WASA.
    But there is no question that, as my comrade Secretary 
Wilson mentioned, that funding for the largest point source to 
the Chesapeake Bay is a fundamental issue. It is $2.2 billion 
to reduce combined sewer overflows; $800 million plus for 
advanced nitrogen. That is $3 billion right there for the 
largest point source. Certainly, we will all participate. There 
is a great partnership here, but the Federal Government, I 
believe, because of the wide benefits, as well as consequence 
to this question, would behoove to continue supporting that 
effort.
    Second, we would like to see the MS-4 provisions in the 
draft, which are already strong, strengthened to include bottom 
line standards for certain kinds of stormwater development. At 
the moment, each jurisdiction will have to battle out that 
issue independently. I actually believe it saves money at the 
local level if you don't need to re-battle that issue every 
single place, but establish on a bottom line basis those 
standards which would comply with Chesapeake efforts. You don't 
have to do that in every place over and over and over for the 
same kind of development.
    Last, I think the section in the draft would be 
strengthened if we focused on transportation and Federal 
highways and the stormwater standards for Federal highways.
    So I am delighted to be here today once again to testify 
before you, and will be prepared to answer questions.
    Thank you.
    Ms. Johnson of Texas. Thank you very much.
    The Honorable P. Michael Sturla, Pennsylvania House of 
Representatives, Harrisburg.
    Mr. Sturla. Thank you, Chairwoman Johnson, Ranking Member 
Boozman, Chairman Oberstar, Members of the Subcommittee, 
especially Representative Platts, who is a former colleague of 
mine in the Pennsylvania House of Representatives. Thank you 
for the opportunity to testify here today.
    My name is Mike Sturla and I am a Member of the 
Pennsylvania House of Representatives, where I serve in the 
96th District representing the City of Lancaster, which for 
those of you who aren't familiar with it, has about 60,000 
people in four square miles, not what you think of when you 
think of Lancaster County. I represent a densely urban area. A 
mile outside of my district are farms that have been farmed for 
250 years, but I have an urban district.
    I am also Chairman of the Majority Policy Committee in the 
House of Representatives, and I have recently be reappointed as 
a member of the Chesapeake Bay Commission. The last time I 
served as a member of the Chesapeake Bay Commission was in 1993 
and 1994. Unfortunately, in the 15 years since I last served on 
the Commission, not much has changed. It is true that we do 
have new funding mechanisms and regulations that have been put 
in place by watershed States to control both point source and 
non-point sources of pollution. And in Pennsylvania alone, we 
have doubled our annual average nitrogen reduction so that we 
now reduce between 1.3 million and 1.5 million pounds of 
nitrogen for the Bay each year. Unfortunately, however, we 
still have 30 million pounds to go.
    Bay-wide, the tidal waters are still impaired and we 
continue to face the challenges of a growing population. The 
current Bay Program has allowed us to make progress and we 
have, and it has resulted in some of the best science in the 
world related to estuaries and their watersheds. But as 
Representative Cummings pointed out earlier, we know what we 
have to do to achieve water quality. What has been missing, and 
I think this is the critical part, is our ability to hold 
ourselves accountable to that goal despite all our good faith 
efforts.
    This hearing and your consideration of the reauthorization 
of the Bay Program is a welcome opportunity to build on the 
past by ensuring that our efforts will indeed result in a clean 
bay. The Bay Program's history has featured a series of 
agreements with long-term water quality goals supplemented 
along the way with programs or regulations enacted to address 
individual nutrient and sediment sources.
    We now recognize that long-term goals are not sufficient in 
a world of two-year election cycles and annual budgeting. So 
we, as a Bay Program partnership, have recently agreed to set 
two-year milestones within the long-term goal of 2025 for full 
implementation of everything we will need to do to achieve a 
restored bay. And I believe, as was pointed out earlier, that 
this is critical to success.
    In addition, we recognize that everything that we will need 
to do includes almost everything that we can ask from any and 
all sectors, wastewater treatment plants, agriculture, 
stormwater and air. While it is true throughout the watershed 
that it is important to remember that a mix of sources and 
conditions varies from State to State, and there is no one size 
fits all solution, States should be given the flexibility to 
determine the most cost-effective way to achieve those load 
reductions within their jurisdictions.
    At the same time, merely planning a strategy is not enough. 
The strategy must ultimately be implemented and we look to be 
held accountable for achieving what we say we will achieve. 
Within the framework of sources, subjects subject to permits 
such as wastewater treatment plants, urban stormwater and 
concentrated animal feeding operations, this is relatively 
easy. Within the realm of sources not subject to permits such 
as small farms and other non-point sources, the job is more 
complex.
    The responsibility for non-point source performance is at 
the State level, and has traditionally focused on voluntary 
incentive-based programs. Regulatory programs also exist, but 
they are not consistently enforced. And as a urban legislator, 
I frequently hear from constituents who receive higher sewer 
rates because of their mandated sewer upgrades, and well we 
should. We dump raw sewage into the Conestoga, which runs past 
my city, 90 days out of the year.
    They also express their frustration that they can see 
farmers continue to apply manure on snow-covered ground or 
allow cows full access to a stream without any consequence. I 
am not suggesting that the answer is to let sewer systems off 
the hook and to shift the burden entirely to agriculture. But 
the amount of reductions that we must achieve means that we 
need all sectors to be responsible for their fair share of the 
loads. We must do a better job at the State level of putting 
the programs in place to get these loads, even from non-point 
sources.
    In a perfect world, we could write a law and the problem 
would be fixed. We don't live in a perfect world and practices 
and technology cost money. Regulatory enforcement is an 
important tool that we can and should be willing to use. 
However, the ultimate goal of enforcement is compliance, and 
compliance costs money.
    Federal funds such as the Farm Bill conservation dollars, 
319 Program funds, the Clean Water State Revolving Fund, and 
the Clean Water Act Programs are critical in helping us achieve 
compliance for both point source and non-point sources.
    In closing, I guess I want to emphasize the importance of 
allowing us the flexibility in how we achieve the goals, but 
remaining absolute on the insistence that we do achieve the 
goal of clean water throughout the watershed.
    Thank you for the opportunity to testify.
    Ms. Johnson of Texas. Thank you very much.
    The Honorable John Cosgrove, Virginia House of Delegates, 
and also Chair of the Chesapeake Bay Commission, Annapolis, 
Maryland.
    Mr. Cosgrove. Thank you very much, Chairman Johnson. I 
really appreciate the opportunity to be here.
    Chairman Oberstar, thank you so much, and Ranking Member 
Boozman, thank you.
    Members of the Committee, I am here to testify in support 
of reauthorization of the Chesapeake Bay Program. And I must 
state at the forefront that the role of the Federal Government 
is critical to the success of the Bay restoration project. For 
this effort to succeed, that role must grow stronger.
    I am here today as a Virginian, as Chairman of the 
Chesapeake Bay Commission, and as a proud Republican to tell 
you that we need Federal Government to play a strong and more 
targeted role in bay restoration. The Clean Water Act must 
provide new authorities and accountability measures that 
complement our State efforts in order to minimize pollution 
from all sources.
    We believe that restoring our Nation's largest estuary is a 
shared responsibility, not just of State and local governments 
and the private sector, but of the Federal Government as well. 
Back in February of 2008, the Commission published a report 
containing a full sweep of recommendations for Federal 
legislation and funding to advance the Bay's restoration from 
2008 to 2010.
    Included within that report were recommendations that the 
EPA Chesapeake Bay Program be reauthorized, with a heightened 
focus on new authorities, increased implementation and 
accountability. The bottom line: since we have more to do with 
less, we need to do a better job choosing what is regulated, 
what is incentivized, and where these programs more 
strategically are applied.
    Now, I have been a member of the Chesapeake Bay Commission 
for five years, and I have the honor of being the Chairman of 
the Commission this year. In the past five years, I can say 
that we have seen a huge increase in State and local government 
investments in the Bay.
    In Virginia, through the State Water Quality Improvement 
Fund, we have invested well over a half billion dollars to 
upgrade our wastewater treatment plants within the Chesapeake 
Bay watershed. And our local governments have stepped up their 
commitments to utilizing the Clean Water Revolving Loan Fund to 
help shoulder the burden to cover the remaining costs of the 
upgrades.
    Now, recently, Federal funding to the Clean Water Revolving 
Loan Fund has increased and we thank you very much for that. 
Other States in the Bay are also using this fund and making 
good progress in tackling their point sources of pollution to 
the Bay.
    So thanks in large part to increased State and Federal 
funding, and existing regulatory permit authority within the 
Clean Water Act, hundreds of sewer treatment plants throughout 
the watershed have been upgrade with new technologies to reduce 
nutrient loads to our bay.
    The Federal Government is, however, making slow progress in 
upgrading its own wastewater treatment plant, Blue Plains, 
located within the District. As the largest point source in the 
entire watershed, almost four million pounds of nitrogen stands 
to be reduced from the Bay's nutrient load from this one 
facility alone.
    Madam Chairwoman, funding from the Federal level is 
essential for this key action to reducing nitrogen pollution in 
the Bay. We ask that you please actively support efforts to 
achieve this immense task and get Blue Plains upgraded with 
additional Federal funding.
    And while the States have been making significant progress 
overall with our point sources, we have not been as successful 
with reducing other diffuse sources of nutrient pollution 
entering the Bay. For our non-point sources of pollution, we 
have good established Federal and State partnerships, but we 
lack the necessary funding and the regulatory authority to get 
the job done.
    In reauthorizing the Chesapeake Bay Program, we have the 
opportunity to capitalize on additional Federal and State 
efforts underway to make real progress in cleaning up the Bay. 
First, the Bay States have agreed to chart out and implement 
two-year restoration milestones. Second, EPA is involving a 
bay-wide TMDL. And third, the President issued an executive 
order directing Federal agencies to coordinate their 
restoration efforts and prioritize the Chesapeake as a national 
treasure.
    Currently, the Clean Water Act applies to all point sources 
of pollution. However, many sources of pollution fall outside 
the scope of the Clean Water Act. To protect a system like the 
Chesapeake where the majority of nutrient pollution comes from 
non-point sources, we must be sure that all sources are 
controlled in a meaningful and accountable way.
    We have seen such leadership exhibited by the U.S. Navy 
within Virginia. The Navy is a model on how to develop their 
lands, and they have committed to use low-impact development 
techniques to ensure reduced water runoff from their 
facilities. It would be great to see this impressive initiative 
expanded across all Federal lands, including Federal highways.
    We need to build on existing partnerships to increase our 
accountability and to increase our rate of success. So far, all 
the tools have included strong intergovernmental partnerships 
and clear regulatory authority.
    Madam Chairwoman, the waters of the Chesapeake Bay are the 
same passages that brought Christopher Newport and Captain John 
Smith to the new world. These waters captured the imagination 
of Lord Calvert and brought him and his descendants to 
establish what is now the State of Maryland. These waters were 
where this great Nation was conceived. And Madam Chairwoman, 
these great waters brought the descendants of a fellow named 
Sam Houston, who was a Virginian, who had a little bit to do 
with the establishment of the Republic of Texas and where you 
live now.
    [Laughter.]
    Mr. Cosgrove. Madam Chairwoman, I actually lived in Dallas 
for three years. I am familiar with Lake Lewisville, Lake Ray 
Hubbard, Lake Grapevine. They are gorgeous bodies of water, and 
you love them. I know you do. We love our bay.
    What we are asking you, Madam Chairwoman and Mr. Chairman, 
is to look at the Chesapeake Bay. Help us restore our bay. Help 
us restore this beautiful, beautiful national treasure so that 
not only us, but our children and our grandchildren, and I will 
have one of those pretty soon, are going to be able to enjoy 
that beautiful waterway, to play in the water, enjoy the crabs, 
the oysters, and just the sunsets on the Chesapeake Bay. We 
need your help and thank you for the opportunity to be here 
today.
    Ms. Johnson of Texas. Thank you very much.
    If you come back and see that Cowboy stadium, you would not 
want to come back to Maryland.
    [Laughter.]
    Ms. Johnson of Texas. We will start the first round of 
questions.
    My question is to Ms. Wilson. In your testimony, you noted 
that the Clean Air Act is a good model for which to pattern the 
amendments to the Clean Water Act, and I would like you to 
expand on that a little bit. That is, what similar elements 
could be included in the Clean Water Act for the State's 
failure to act or produce desired results? And how could these 
penalties be structured where they would be an effective 
incentive, and therefore never actually implemented, hopefully?
    Ms. Wilson. Thank you for the question. We have looked at a 
number of different possibilities, and concluded that the Clean 
Air Act provided the best model because it is an iterative 
planning process, but there are two distinct features of it. 
There is a deadline and there is a sanction if the plan is not 
adequate. And of course, as you know, that sanction under 
Federal law is the withholding of transportation funds, which 
has never been fully exercised. So in that sense, it has also 
been effective in that it prompts compliance and the 
development of these plans.
    That has been lacking in the Chesapeake Bay restoration 
effort. As has been mentioned earlier, we have had voluntary 
commitments, and despite tremendous progress, really in the 
face of tremendous development in the Bay watershed, we still 
haven't gotten there.
    So when you are looking at what seems to be missing from 
the current system, it is the planning process, but a planning 
process that can be enforced and that has consequences for 
failing to meet it that seems to be missing.
    In terms of whether we would advocate, for example, for the 
withholding of Federal transportation funds for lack of 
developing an adequate water quality improvement plan or 
failure to meet the deadline, we have made other suggestions 
that might be appropriate, and those would include some of the 
withholding of funds such as revolving loan funds. You could 
put in place requirements for the offsets of new development so 
that you are not always behind the game, so to speak.
    So there are a range of options, but I think really the 
critical piece is to have a consequence to not either 
submitting or having in place and implementing a plan that 
meets the deadline that we collectively set that is meaningful, 
and what is what we really need.
    Ms. Johnson of Texas. Thank you very much.
    I will now ask our Ranking Member for any questions he 
might have.
    Mr. Boozman. Thank you, Madam Chair.
    I guess the question I would have, and again, even though I 
am Arkansan, we are in the middle of the Country. We have a lot 
of water, and we have a lot of water going to other States, and 
because of that I am very, very familiar with water problems 
from living it, and then also being in the position that I am 
in now, but this has been going on for a while.
    Mr. Cosgrove said, you know, that you lacked the regulatory 
authority that you needed. I think that was kind of the theme. 
You just mentioned some things, Ms. Wilson. Can you guys kind 
of go through and just tell me if you could snap your fingers 
what those regulatory authorities would be?
    Mr. Sturla?
    Mr. Sturla. Well, if I could, I think one of the things we 
need is somebody perhaps with a slightly larger hammer than we 
do to hold over some people's heads. And in addition, as I 
pointed out in my testimony, we also need to be able to help 
people with that compliance.
    As an example, I recently introduced legislation to require 
any farm or forest land in the State that is under our Clean 
and Green Program, which gives them tax breaks, to actually 
have a conservation plan. The hue and cry I heard was that they 
couldn't find enough technical consultants to get those plans 
done so we had to phase it in over a five-year period.
    So even the idea that they should be not polluting in order 
to get tax credits, I only have enough dollars and enough 
manpower to let that happen within five years, if I can get 
that law passed, and I don't have that.
    If the Federal Government says, I am sorry, you have to do 
that, then I suddenly sit up and start to comply, particularly 
if there is some sticks that are held out there, because I am 
frustrated, as a member of the Chesapeake Bay Commission, 
knowing that I have asked for voluntary compliance for years 
and years and years, and everybody says, yes, I will get around 
to it, and 15 years later, no one has still gotten around to 
it.
    Mr. Boozman. Director Hawkins?
    Mr. Hawkins. Thank you for asking the question. I have a 
very direct response, because I believe this debate has been 
addressed in this body years before, in both the Clean Air Act 
and the Clean Water Act. The question is how do we impose 
across a large area multi-State, multi-jurisdiction standards 
that we know will reduce pollutants to the Chesapeake. At the 
moment, each jurisdiction--and we heard there are more than 
1,000 of them--are individually seeking to answer that question 
as best they can, using local authorities that can be a 
challenge in every single jurisdiction at every single moment. 
The sheer level of local work that goes into it, often which is 
overturned, the fights are brutal and the consequence, as we 
have seen, has not been strong.
    What we also can do--and this is what you just heard 
Secretary Wilson mention--under the Clean Air Act, you have a 
SIT plan. Not only does it have a very specific end deadline, 
there are numbers that the plan must meet based on the best 
model that you can put in place.
    Now, in Washington, D.C. we were thinking of decentralizing 
air mission control for cars. The model shows that your air 
pollute reductions decrease if you decentralize, because gas 
stations can do a little more hanky panky than a centralized 
system can. As a result, if we wanted to implement that under 
our very clear SIT plan, we would define measurable results 
immediately in some alternative before it would be approved. So 
there is an immediate need to have consequence on any change we 
made on how we operate our city. That is a very firm system, 
and we can do that for water discharges the way we have done 
for air.
    The second--so the bubble notion, flexibility within it, 
but a clear date and level of reductions, combined with the 
minimum standards. It doesn't mean that every jurisdiction 
shouldn't decide. If we have an open plot of land down at the 
old Convention Center at H Street, it is D.C.'s decision 
whether or not to build on that site. That is a local decision. 
But if you are going to build on that site, there should be a 
minimum set of stormwater standards that, again, every one of 
1,000 jurisdictions doesn't have to refigure out.
    You can always do more, but if you are going to do it, 
whether you have a rain barrel, whether you have a rain garden, 
whether you put a green roof on, the low impact development 
strategies, there is a bottom line that is common throughout 
the jurisdictions that are implemented everywhere that still 
allows for local flexibility, that allows how you would apply 
it on the site, but it means a certain level of performance can 
be guaranteed within your bubble and at a standard. That would 
be connected to two things, one is a funding source, which the 
Senate bill at least authorizes, and, second, consequence if 
you don't, which I agree with Secretary Wilson should mean 
withdrawing funds connected to the same topic; and there is the 
revolving funds, there are the funds that are noted here. There 
are plenty of tools that can be used by the Federal Government 
both to give encouragement to do the right thing and also to do 
a disincentive not to do the right thing that are immediate.
    Mr. Bryant. Just a quick answer as well. We were quick to 
note that there are many sectors involved--wastewater treatment 
plants, agriculture, urban, suburban, homeowners, etcetera. 
When I suggested that there are expanded authority, the most 
frequently cited example is agriculture. For example, the EPA 
has estimated that less than 20 percent, less than 20 percent 
of the nutrient sediment runoffs from agricultural lands is 
currently captured, is currently under some type of regulation. 
With this bill, the reauthorization bill, as drafted, 
authorizes an expansion of State permitting authority, under 
Section 402 of the Clean Water Act, that will allow States to 
address any pollution, any contributor, and therefore capture 
some of the areas that are not being captured now from a 
regulatory perspective.
    And I want to be quick to add that there have been great 
advances and great work with our agricultural community. I 
cited that as an example. We can cite the same similar 
imbalances in urban runoff and in air deposition as well. But 
look at Section 402 of the bill, Section 402 of the Clean Water 
Act for some expanded State permitting authority.
    Mr. Boozman. Ms. Wilson?
    Ms. Wilson. Thank you for the question. I think that you 
are hearing a couple of themes come through, and I would agree 
with those, and that is a planning process with deadlines and 
requirements for meeting standards, the notion of standardized 
thresholds, minimum thresholds throughout the watershed. I like 
the idea that was raised about the fact that having that 
minimum threshold would actually be more efficient than the 
process we currently have with each of the jurisdictions 
implementing different standards, and it would also sort of 
level the playing field, if you would. So I agree with all the 
suggestions that have been made.
    Mr. Boozman. So you think it would be better than for the 
Federal Government, for us to dictate, versus you all forming 
some sort of a compact? I guess the problem with this, the 
reality is, you know, you talked about agriculture. You know, 
that is an expanse. The point source is going from one part to 
point one in phosphorus. You are talking about many, many 
millions of dollars, and the ratepayers are going to have to 
pay that. I mean, the vast majority of that is going to be 
picked up by the individual ratepayer.
    So where I see we get in trouble is that we look at that 
not as kind of a one size fits all situation, you just look at 
it versus the local circumstance; and I think that really is a 
big problem. I think that it is going to cost a tremendous 
amount of money.
    Ms. Wilson. If I may respond, I agree with your points, and 
I think what we are advocating for is minimum technical 
standards so that we get some consistency. Historically, each 
of the States have developed their own approach and we are 
still doing the same, actually, because each State has a 
different plan for accelerating the restoration plans. If you 
were to have a water quality planning process and each 
jurisdiction were to develop its own plan for how it was going 
to get its nutrient reductions, that jurisdiction could then 
determine whether they wanted to shift the expense to 
ratepayers, for example, through wastewater treatment plant 
upgrades or to do it in a different way.
    So acknowledging what you are saying, I think we are 
looking for something that has some minimum level of standards, 
but still has a planning process that is tight and that we have 
to meet, but allows for some flexibility.
    Mr. Hawkins. And a comment that I would offer, I think your 
point is very well taken. I have spent a lot of my career doing 
local government support. What I found with developers is that, 
in fact, when you have every jurisdiction--and in many places 
it is town by town--there is a different set of standards. In 
fact, the amount of engineering and legal time you have to 
spend figuring out each individual set of technical 
specifications is far more expensive if there is a simplified 
bottom that everybody knows applies. And, in fact, every time I 
put on a roof, it is the same kind of roof. Your fixed costs 
actually go down, not go up, because you know exactly what you 
have to do; you can prepare the materials, the design 
engineering and architecture becomes more simplified, and, in 
fact, you can save. It is still totally a local decision; is it 
a large building, is it a small building, is it on that corner 
or is it on this corner, the basic specifications of how we 
make sure stormwater. Plus, you can cut your specifications 
into specific categories. It is not for all homes; you can 
divide it up in a rural area, in a suburban area, and have 
different grades of protections based on how specific you 
become.
    Ms. Johnson of Texas. Mr. Cummings.
    Mr. Cummings. Thank you very much, Madam Chair.
    I am sitting here and I am trying to get through this, and 
I think what things are boiling down to and I think the 
Chairwoman's question and Mr. Boozman's questions go to two 
issues, equity and accountability. I want you all to go on 
record saying that you agree that there should be consequences. 
You know, they say you can keep doing what you have been doing, 
and you are probably going to get the same results; or you can 
do things differently.
    So I guess I heard what you said, Secretary Wilson, and I 
heard what you all just said about basically reviewing this 
whole thing--Secretary Bryant talking about this idea of every 
two years or whatever, having these shorter benchmarks. I can't 
think of anything else to call them. I think that is a great 
idea.
    I guess what I am trying to figure out is at what point is 
a part of the benchmark not only about putting in the 
mechanisms we want to leave in place to get to the final goal? 
Or is it also saying, okay, this is where we want to be by 
2012, this is what we want to do by 2016, as far as reductions 
and the kinds of stuff we want to see and this is what we need 
to have in place. It just seems like something is missing here 
under the current approach.
    The other thing is that I want to know, when you consider 
Virginia, with Governor Kaine, he only has one term, so I want 
you all to go on record saying that you think that there should 
be consequences and I want you all to define this thing a 
little bit better, Secretary Bryant, this whole issue of 
flexibility, because flexibility is important, I think. If you 
have an economic situation like we find ourselves in, that is 
one thing, but you also know that flexibility can create some 
loopholes, and it actually could fly in the face of the very 
thing we are trying to accomplish.
    So I guess I go back to what I said from the very 
beginning, that we have got to ask ourselves, okay, are we 
going to grab this thing and deal with it right now; are we 
going to make our environment, the Chesapeake Bay, better 
than--the environment in the Chesapeake Bay better than when we 
found it when we came along; or are we going to leave something 
worse off for our children and generations yet unborn? I mean, 
that is the real deal. This is our watch, so we have to ask 
whether flexibility is a word for passing it on to another 
generation?
    I know that is not what you are trying to say, but I want--
I mean, as I listen to your discussion, I think that is where, 
again, the issue of equity and accountability, those two things 
play an important role. I would like to hear you all go on 
record to say you agree that there should be consequences and 
that this whole thing of flexibility would almost have to be 
something extraordinary like the economy going just kaput. So I 
hope that--so I would like to just go down the line. I will 
start with my secretary, if you don't mind, from Maryland, 
Secretary Wilson, then we will go down the line, if you don't 
mind. Thank you.
    Ms. Wilson. Congressman, thank you for the excellent 
question. Yes, Maryland supports consequences, as you know. And 
I think I led everybody astray, and I didn't mean to. The 
process that we have under the Clean Air Act is an incremental 
planning process, so you take a chunk of time, you have a 
standard that you need to meet at the end of that period of 
time, and you have to put in place or put forward a plan that 
shows you, piece by piece, how you are going to get to that end 
standard and in what time frame. EPA reviews it and says that 
is good, we agree; that is no good, and unless you fix it these 
consequences are going to come into play.
    So that sort of combines both having a deadline with 
consequences with the flexibility to tailor your plan to your 
situation that we were talking about earlier. So you have 
stated it far better than I ever could. We do have a choice 
now, and we have the opportunity, with this Executive Order and 
President Obama's leadership, to put in place a plan that will 
get us there by a date certain. Maryland is advocating for 
2020; other States are advocating for 2025. But I think the 
most important thing is that we put that end date in place and 
get this mandatory planning process, with some consequence if 
you don't fully implement it, in place as soon as possible.
    Mr. Cummings. All right.
    Ms. Wilson. Thank you.
    Mr. Cummings. Thank you.
    Mr. Bryant. Mr. Cummings, my remarks earlier on 
acknowledging that there must be consequences were actually 
reflective of what Governor Kaine himself has said. As Chairman 
of the Chesapeake Executive Council with his colleagues, again, 
they acknowledged a year ago that not only have the States 
collectively failed to meet a number of targets in several 
multi-State compacts heretofore over the last 30 years, but the 
most recent one being that we are not going to meet some of our 
targets or many of our targets, most of our targets, for our 
2010 deadline. Some individual targets will be met, for 
example, Virginia will meet our 2010 deadlines for sewage 
treatment plants; but we will miss many others, as will the 
other States.
    So Governor Kaine has said, yes, there must be 
consequences. If we are to be seeking, on the one hand, more 
Federal assistance and being grateful for the Federal 
organization and assistance that is outlined in the Executive 
Order, if we are to be seeking, say, $1.5 billion here, we 
acknowledge that, on the other hand, there must be consequences 
if we fail to meet the expectations imbedded in them. In these 
two-year milestones, adopting these two-year benchmarks, that 
is a new methodology. Out with the old of 10-year long-term 
goals that you don't know if you are meeting them until the 
very end, and in with the new, meaning short two-year 
milestones, much more transparent, much more accountable. There 
are many, many stakeholders who are looking over our shoulders 
and watching us. They will know immediately if we have failed 
and, therefore, puts the pressure on us on the next set of two-
year milestones. It will be cumulative.
    You mentioned that, in Virginia, we are the only State 
where the governor can't succeed himself. I am a former 
legislator and budget writer, and I can tell you, as I have 
said previously in other forums, that I admit it is not every 
day that a State official comes here before you and says show 
me your teeth and pick up a hammer and do something to me if I 
fail. But we are at that point. We all know that the Chesapeake 
Bay is at a very significant point, and I can tell you, as I 
have said before, that budget writers at the State level, they 
don't necessarily fear the EPA. There hasn't been that level--
in this respect: there hasn't been that level of consequence 
exacted upon us in days past. And, as such, when budget writers 
have to make significant appropriations decisions, it falls to 
the bottom of the list because they are not necessarily as 
concerned as they should be, and they should be.
    So, yes, we are on record saying there should be 
consequences.
    Ms. Edwards. [Presiding] Mr. Cummings, perhaps we could 
hear from Mr. Hawkins and Mr. Sturla so that we can move on. 
Thank you.
    Director Hawkins?
    Mr. Hawkins. Yes. I want to be clear and very straight.
    Mr. Cummings. You all can be brief.
    Mr. Hawkins. The District of Columbia supports very clear 
standards. By flexibility we mean if you have to reduce your 
nitrogen reductions by 10 percent in two years, we will give 
you flexibility in how you achieve that 10 percent, whichever 
is best for your city, but you better achieve it or there will 
be consequence. And we agree with that system with one 
addition, which is our presentation that there should be some 
bottom-line standards for development that, no matter what else 
you do, you must incorporate those. So there is inflexibility 
on certain pieces that you must implement.
    I would add that is exactly the system that industrial 
facilities have faced for the last 20 years. You give them an 
end of point discharge that they must meet. What they do in 
their facility to meet that is their job. But at the end of the 
day, they have to meet the number and, if they don't, there is 
a violation and a consequence. That is the same system.
    Mr. Cummings. Thank you.
    Ms. Edwards. Thank you.
    Mr. Sturla?
    Mr. Sturla. Thank you. Yes, we do support consequences and, 
as was pointed out, we do want some flexibility in how we get 
to our goal, but we do want somebody to say that there are 
consequences if we never get to our goal or if we don't meet 
those goals. Part of what we face is those debates within our 
State, rural agriculture versus urban sewer stormwater plants 
that are combined systems, stormwater and sewer, that are 200 
years old and suburban areas that have a lot of big box runoff. 
We are all competing with each other as to who needs to do 
what. So when I end up with a diluted plan at the end of it and 
I go back to the Chesapeake Bay Commission and say, well, we 
didn't quite get to where we wanted to in Pennsylvania, but, 
guess what, you didn't get to where you wanted to in Virginia 
either, and you didn't get to where you wanted to in Maryland, 
and we know that New York and West Virginia and Delaware, which 
aren't even members, surely didn't get to where they are, and, 
by the way, there is Blue Plains, so we can lay all the blame 
on them. There is always somebody else that you can blame and 
point the finger at, and unless there is somebody at the top 
saying you all have to comply and there are going to be 
consequences for everyone unless you comply, we will always be 
able to point fingers and do the blame game and escape what we 
believe is something that maybe we should do, but we will get 
there eventually.
    Mr. Cummings. Thank you, Madam Chair.
    Ms. Edwards. Thank you, Mr. Cummings.
    Mr. Platts.
    Mr. Platts. Thank you, Madam Chair. I first want to thank 
all of our witnesses for your testimony. I am sorry I had to 
step out for some of it.
    Mike, especially, good to see you. Thanks for coming down.
    My question for all of you to address, but starting with 
Mike and specific to Pennsylvania, then broadening it, in some 
proposed legislation there is the idea of expanding to having a 
nutrient trading program for the entire watershed, for the 
entire region, all six States, using Pennsylvania as a model.
    So, Mike, I was wondering if you would be able to expand a 
little bit on what Pennsylvania has done and how you have seen 
it work, specifically in Lancaster County, because I think in 
your opening remarks you captured, in Lancaster County, what 
really embodies this whole region, because your district, the 
96, is a very tight urban district, but you have the suburbs 
around you and then you have those great Amish farms beyond 
that, and it encompasses the differences throughout this 
region.
    And then for all of you, your sentiments on the idea of a 
regional trading program, and should it be a Federal mandate 
that we do it or should it be left to the discretion of the 
various States to enter into agreements to do that across State 
borders, as opposed to us establishing it through some Federal 
legislation.
    Mr. Sturla. Yes. We do support nutrient caps and the 
trading program, and only if there are caps does a nutrient 
trading program actually work. It is only when you create that 
demand that a farmer can say if I put certain practices into 
place, I can take some of that cap, I can sell that, I can 
become profitable by doing good farming practices and by being 
good stewards of land and eat up some of those credits.
    It has to, though, be in place in a sort of forceful, 
effective way for it to be successful. If it is just sort of an 
open market, no cap on it, just willy-nilly, you want to buy 
some credits, there is nothing to buy if I am not being forced. 
If the EPA never says we are going to impose penalties on you, 
if I keep getting the pass because I am trying and I am going 
to do it next year, it will never be as effective as it should 
be.
    Mr. Hawkins. On behalf of the District, we are interested 
with the idea of cap-and-trade essentially for these nutrient. 
The challenge that we see, and looked at this issue in other 
jurisdictions I have worked in, and is in the draft 
legislation, the two big issues: if you are going to trade from 
one place to another, how do you make sure the place that is 
buying credits and, therefore, polluting more than they would 
have otherwise, that there is not a risk to that water body? 
That is such a resource and information-specific decision on 
every one of the trades that I am not--we are completely open 
to it. I am not confident that the transaction costs won't be 
more than what you can do if it is done on a very broad scale.
    Second, there are some cases when you won't want to trade 
at all, if the parties trading have significant compliance 
issues.
    So we are certainly still open to that idea, but want to 
learn much more.
    Mr. Bryant. Four or five years ago, Virginia actually 
instituted a comprehensive nutrient credit trading program for 
nitrogen and phosphorus, principally for wastewater treatment 
plants. What we found is we had 2010 deadlines for more than 
100 wastewater treatment plants in Virginia that needed to be 
upgraded. Maryland had roughly 60. So just in the two 
neighboring States there were 160 wastewater treatment 
facilities that were all going to be competing for labor, 
materials in a very short period of time, and we knew the costs 
were going to go up. So we implemented a nutrient credit 
trading program. I believe, if I remember correctly, there were 
only two such programs in the Country, a small one around Cape 
Fear, North Carolina, and a fairly small one in the Long Island 
Sound.
    In Virginia, we constructed one that is broad and 
comprehensive, and the EPA estimated that it would achieve 
something like $200 million in savings against the conventional 
everybody doing their own thing and upgrading to state-of-the-
art technology. So ours is going well. We have also expanded it 
recently to make provisions for non-point sources to also be a 
part of that trading system.
    Ms. Wilson. Maryland supports a cap-and-trade program if it 
has the appropriate controls on it. And we know from our 
participation in other cap-and-trade programs that it is 
essential that regulating the environment so that there is 
consistency and parity between the trades, if you will, is 
essential to making it work.
    To your question about whether it should be mandated in 
Federal legislation, our experience in Maryland, as you know, a 
fairly small State, is that it would be much more effective if 
it were on a wider scale because you get a critical mass so 
that you can have effective trades between the sectors, in 
particular. So if that is what it took to get a regional 
trading program in place, we would say yes. But, again, it is 
all contingent on having the proper controls for the trades.
    Mr. Platts. And the controls and what the cap is, if you 
are doing it regionally, how we set the cap for the whole 
region versus individual States. I mean, there are a lot of 
variables that would have to play out to make sure it is 
effective, fair, and doesn't result in lack of focus on local 
degradation, that we abandon some areas, in essence, just by 
buying credits, instead of trying to still fix those problems.
    So I appreciate each of your insights and, again, for all 
your testimony. I appreciate your making the effort here today. 
The timing was maybe a little ideal; my seventh grader at 
Yorksboro Middle School, this week's test was on estuaries and 
the Chesapeake Bay watershed and these issues, so I think I got 
prepared for the hearing versus helping him study for his 
exams.
    Thank you, Madam Chair. I yield back.
    Ms. Edwards. Thank you, Mr. Platts. I think there are 
several of us who can attest to having gone through a test or 
two on the Chesapeake Bay.
    My question actually originally started with Mr. Cosgrove 
and Mr. Fox, both of whom have left, so I will give you all an 
opportunity.
    Secretary Wilson, it is always good to see you and to hear 
about what our great State is doing with your partners in the 
other States. I wonder if you could--you have all talked to 
what sounds to me like disharmony in terms of the regulatory 
structures in each of the jurisdictions and implementation of 
programs in those jurisdictions, and, very surprisingly, each 
of you also has spoken to the idea that you want additional 
Federal regulation, which is not something that we often hear 
from States.
    But speaking to that disharmony, it does occur to me that 
some of the challenges that EPA has outlined are actually 
things over which they don't have any control or authority 
right now, and I am concerned that, under current standards, 
the EPA is really not going to be able to achieve the kinds of 
reductions that have been identified as necessary unless they 
have some additional regulatory authority. So without speaking 
to what each of your States or jurisdictions is doing, I wonder 
if you could talk very specifically about where it is that EPA 
needs the greatest amount of authority over the region and the 
watershed.
    Ms. Wilson. Thank you for that question, which is a good 
one. To our way of thinking, in addition to the mandatory 
planning process and the deadline and the consequences that we 
have already talked about, that is an authority that is not in 
place for the watershed. So that would be one area. You 
rightfully point out that a lot of the activity for nutrient 
reduction that needs to take place is local, and the local 
sources are varied, from small municipalities to agriculture; 
and I think that that is the advantage of this planning 
process, wherein a State could be given a target and then 
figure out for its jurisdiction what is the best way to get 
there.
    So, in answer to your question, I think it is the mandatory 
planning process and the deadline and the consequences that 
will incorporate all of those issues.
    Ms. Edwards. And let me just interrupt here, because with 
the exception of the District of Columbia, it is also true that 
even in a State like Maryland, you have local jurisdictions 
that have broad authority over economic development policies 
and strategies and their local road systems that are also 
contributing to runoff. So even in your individual States it 
does seem to me that the EPA still would lack what it needs to 
do to enforce a watershed-wide policy for the kinds of 
reductions we need to see.
    Any thoughts about that? I can imagine if we had our 
counties here, they would cringe if we thought about impeding 
their planning and development processes.
    Ms. Wilson. And these are challenges that we currently deal 
with and that local governments are currently dealing with. So, 
for example, if you take the area of wastewater treatment plant 
upgrades, there is State funding available, but those are local 
projects as well. So there is a system, if you will, in place 
where the State will set standards. For example, with 
stormwater we set a minimum standard and now all the counties 
will adopt that.
    So there is this flow of authority, if you will, from the 
Feds to the State to the local governments, and I think if we 
were to put in place the--and I feel like I am repeating 
myself, and I apologize if I am; I am just not articulating it 
well. If we were to put in place this mandatory planning 
process, where we had to meet certain water quality goals, we 
would then figure out what the State could do and work with the 
local governments to figure out what they could do, you know, 
work with agriculture to figure out what they could do. But you 
are right, it is a mix of activities that need to occur in 
terms of the nutrient reductions.
    Ms. Edwards. And I want to just go on to the next witness 
because our Chairman is here, and I know that he has questions 
as well. But first, I want to just go to this issue--it seems 
the most anxiety has been raised by farmers and homebuilders. I 
understand the challenges faced, but I wonder, particularly 
from Pennsylvania and Virginia, obviously, Maryland,--we have 
farmers as well, quite a number of them on the shore,--if you 
could address for me where you believe the EPA needs to have 
broader authority that would assist us in getting the 
reductions in, say, nitrogen and phosphorus levels, but still 
enable the kind of commercial and agricultural activity that 
many of our States depend upon.
    Mr. Sturla?
    Mr. Sturla. Well, I will talk a little bit about 
enforcement, but I would also like to talk a little bit about 
grants, because part of our testimony also said we needed some 
money to go along with this.
    And, as an example, I will use my community, the City of 
Lancaster. In Pennsylvania, we don't do a county-wide 
government overview of all this, we do municipality by 
municipality, and there are over 2500 different municipalities. 
Mine has 60,000 in about a four square mile area and our 
combined stormwater and sewer system, which was built over 200 
years ago, every day that it rains dumps raw sewage into the 
stream. That is 90 days out of the year. EPA has put us on 
notice saying we better get things cleaned up, and we are 
looking at, because we can't separate the systems quickly--that 
will take 20 years and hundreds of millions of dollars--we are 
looking at our short-term solution of building a $30 million 
holding tank so that we can capture that effluent on those 90 
days and process it in the off days when it is dry.
    We have 60,000 constituents and a $30 million holding tank 
we need. I mean, you do the math. It gets overwhelming for 
small municipalities like that. And we are pretty good about 
it. There are smaller municipalities that are in even worse 
shape.
    On the agricultural end of things, you will always see, in 
Pennsylvania, anyway, them talk about what are called legacy 
sediments, because there used to be a mill dam every mile or so 
down the road where there was a grist mill, and they built a 
dam and all the sediments backed up behind that dam for years, 
and now all those dams are gone because they are hazardous 
risks and all that silt is continuing to move down the stream 
every time we have a major storm event. So the farmers say 
don't blame me, blame the guy who farmed 100 years ago. We need 
to get that legacy sediment cleaned up also. That is not an 
easy process and that is not something that the farmers view as 
their responsibility, but we have to figure out how to get to 
it.
    Ms. Edwards. Thank you.
    Secretary Bryant?
    Mr. Bryant. Yes, ma'am. First, I must say agriculture and 
forestry is still the number one industry in Virginia. As 
Governor Kaine frequently says, there is not even a close 
second. The Virginia way has always been to work in a very 
voluntary and incentive-based way through cost share programs 
with EPA and others to incentivize our agricultural community 
to step up, and many have; we have made great progress.
    I hesitate to speak for Mr. Fox, who has left, but I 
believe he has said a number of times that he thinks that, in 
his reading of the Clean Water Act, there may be sufficient 
power within existing law. However, he also has noted that 
there should be perhaps some more attention paid to large 
animal feeding operations that are great sources of pollution. 
As I have noted previously, the EPA estimates that less than 20 
percent of the agricultural runoff is currently regulated. So 
probably focusing on some agricultural areas may be where some 
improvements need to be made.
    Let me also say this, however. Working very closely with 
the Virginia agricultural community, they have brought it to 
our attention and they contend that there may be much better 
and much more good stuff going on than they are properly being 
given credit for. There are many voluntary actions being 
undertaken by Virginia farmers that are not being tracked and 
properly accounted. So we are exploring whether or not there 
are ways that we can get additional information from USDA to be 
shared in the aggregate for privacy reasons with EPA so that we 
can give the agricultural community proper credit and 
accounting where we may not be giving them credit for right 
now. So we would like to keep that in balance.
    Ms. Edwards. Thank you, Mr. Secretary.
    I am going to--we have just been--well, I have additional 
questions, but I am going to defer to my Chairman, and I will 
come back.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Again, I appreciate all of you participating 
and sharing with us your wisdom, your thoughts, your energy, 
and your passion for protecting the Chesapeake. I said earlier 
it is the Chesapeake, it is Puget Sound, it is the New England 
fisheries, it is the Gulf Coast fisheries, it is the Great 
Lakes, where we are beleaguered by invasive species and the 
residue of hundreds of industrial plants and a century or more 
of industrial discharges that are still there on the bottom, 
sediment being taken up through the food chain. We have to deal 
with all of those things. We have to walk and chew gum at the 
same time.
    Your idea of a holding tank, Mr. Sturla, do you know how 
old that is? Thirty years. Thirty years ago the first project 
was initiated here in the District of Columbia at the urging of 
my predecessor, John Blatnik, who worked with the then Federal 
Water Pollution Control Administration and some innovative 
researchers who said, you know, we have these huge storms, 
there isn't enough money to separate storm sewer and sanitary 
sewers, and it would be best if we tried channeling all of that 
into big holding facilities, neoprene bladders that would hold 
a million gallons of runoff. And an experiment was undertaken 
and they were built in the Potomac and the Patuxent and it 
worked.
    But then came the Reagan Administration and they abolished 
all those funding ideas and the money went away, and we 
converted from an 80 percent Federal grant program to a loan 
program, just at the time that the smallest communities in this 
Country, who were next in line to get the big load of Federal 
grant funds. Then, as you described, the small town in 
Lancaster, Pennsylvania, like many in my district and elsewhere 
around the Country, they had to go hat in hand for a loan, to 
be repaid with interest. That was the wrong thing to do at the 
right time. The right time was back then. We were going to deal 
with all these small issues, having dealt with large waste 
streams. So that is still our problem all over this Country, 
but especially in this watershed.
    Now, we are coming back to this idea of holding tanks--I 
just want to finish that thought off--at the headwaters of the 
Great Lakes in Duluth, in my district, and Superior. They are 
building three of these holding tanks. A lot less expensive 
than going back digging up all the sewers and separating the 
combined storm and sanitary. Build these holding tanks, hold 
the material until the storm has passed, pump it back through 
the system, treat it properly at far less cost. But we ought to 
reinstate the grant program to do these things.
    But the question, among many, that I wanted to ask Mr. Fox, 
but I know he had a medical appointment to attend. But, you are 
good surrogates, all of you, to discuss concentrated animal 
feeding operations. We know what they are, but what about those 
entities like Perdue Farms that get around pollution control 
programs by having a central facility, whereby they have all 
these little satellite growers who are not point sources, and 
then they send their chickens into the central processing 
plant? How do you get at those? Do we need to change the 
definition of CAFOs? Do we need to restructure the law, or is 
there enough authority within existing law to get at them?
    Ms. Wilson. Mr. Chair, I will take a stab at that one. In 
Maryland, I mentioned in our testimony that we recently put in 
place a new set of requirements for manure management for 
poultry operations, and it was basically an expanded group of 
poultry operators above a certain size threshold, because they 
were not previously regulated. So that was a very controversial 
undertaking. We got a lot of very good input from the farming 
community about how to make the requirements more efficient and 
more likely to be implemented properly, and made adjustments 
accordingly. The EPA has recently changed its interpretation of 
a definition and now the Federal rule will encompass most of 
the facilities that Maryland is regulating.
    So a long way of saying, to some extent, some of those 
facilities are currently being regulated. And I would not speak 
for Mr. Fox, but in draft reports that EPA has recently issued, 
there is discussion of expanding the universe of what would be 
covered under those sorts of requirements, and I think the 
discussion that we all need to have is what would that 
expansion be and what would it entail. And there is obviously a 
tremendous amount of interest in the answers to those 
questions.
    Mr. Oberstar. Thank you. There are probably 100 questions I 
would love to ask. We can have that in a smaller setting, in a 
different setting. But a common theme running through your 
testimony and through the roundtable we had a couple months ago 
or so, was the need for finding enforceable implementation 
plans. This was repeated again today in this setting, and the 
commitment of all the States was clear--New York was a part of 
that, Pennsylvania, West Virginia, the District was very 
enthusiastic. Director Hawkins, I remember your forceful 
presentation for a Chesapeake watershed management plan. And 
all the elements are there for it; all the pieces have been 
studied. The documents are this high, maybe higher. We don't 
need a newly funded study; people are fed up with studies. We 
want an action plan, we want a watershed management action 
plan.
    Mr. Cummings is receiving information as the formal head of 
our task force that I have charged him with undertaking. When 
are you going to get this information to him and when is he 
going to be able to come back to this Committee in time for the 
reauthorization? We need to have a really strong watershed plan 
so that, as you said in that roundtable, there are Chesapeake 
standards that we are all adhering to, New York as well as 
Virginia as well as the District--all adhering to Chesapeake 
standards.
    Mr. Hawkins. A quick comment, and this connects to the 
question you raised before about the jurisdiction of EPA under 
the Clean Water Act. I fundamentally believe the Clean Water 
Act has plenty of authority to establish standards for 
discharges and the total maximum daily loads, which can be a 
waste allocation or a load allocation, which is to point or 
non-point sources. In the District, we are currently 
negotiating a MS-4 permit with EPA that will have operational 
consequence in how we build the buildings of this city, just 
like virtually every jurisdiction in the Country. What has been 
missing from the Clean Water Act, as everybody knows, is not 
the authority to set the standard or to be prepared at what the 
numbers ought to be, it is the implementation plan that goes 
with it in parallel so you know what must be done, where, and 
how.
    Our fear in the District--of course we want development in 
the city. The mayor is fully committed to both, a green city 
and a vibrant city. We know we will have to have a very high 
set of standards under a federally issued permit for 
development in an MS-4 context. What we would like to see is 
that not price developers out of the city out to farm fields, 
because there would be standards there as well. So it is an 
even playing field. We will step up, and are, as the mayor 
wants both vibrant economics, as well as a green city.
    Having a common playing field means that is true across the 
Chesapeake Bay with Chesapeake standards. The authority to set 
the numbers are there. The challenge has been, for the last 20 
years, what are the definable implementation plans, which, in 
the draft, is the tributary implementation plan as the main 
implementation scheme. That is a great addition and something 
that we need.
    Mr. Oberstar. Well, I look forward to seeing that, and I 
think that is the key element. As discussed in the roundtable 
and as it runs as a theme throughout all your testimony, we 
need to have watershed-wide standards that all are going to 
adhere to and we have an enforceable program. We also have to 
put some money up for this thing. However, we are always asked 
how much is it going to cost? What is the cost of not acting? 
What is the cost? Maybe you give a bushel of oysters to 
everybody up in New York who says, look, we don't use the Bay. 
But if you restore that Bay there will be enough oysters for 
the whole watershed to give a bushel to every household. That 
Bay used to be filtered in a week by the oysters; now it is a 
year.
    That is not sustainable. It is not about fisheries 
management, it is about water management, about the water 
quality management and about doing it across the whole 
watershed. And, in that theme, I am developing a watershed plan 
for the whole Country to get this whole thing going in the 
right direction.
    All right, Madam Chair, I will desist.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Boozman, do you have additional questions?
    Mr. Boozman. No, ma'am.
    Ms. Edwards. If I could just ask two more questions, then I 
promise we will let you go.
    Mr. Hawkins, a number of us on the Transportation Committee 
actually signed onto a letter making a request through our 
Chairman and our Ranking Member that the transportation 
infrastructure surface transportation reauthorization include a 
clear policy, standard, and guidance to reduce or eliminate 
stormwater discharges from new or major highway retrofits; and 
you have already indicated, of course, the problems with our 
local suburban and urban runoff problems. How can we best, if 
you would just--and I am asking this on behalf of Ms. Norton, 
who couldn't be here today, so I think she just wants to make 
sure it is on the record. How can the Federal Government best 
approach the problem?
    Mr. Hawkins. That is a great question and it is one, again, 
for example, in the city roads, DDOT, that we do here in the 
District, that is also subject to the MS-4 permit negotiation, 
which I just mentioned. There will be EPA negotiated 
requirements, coming from a Federal mandate, of how we design 
the roads in the city, and we are going to be implementing more 
of what is called a low-impact design development standard to 
allow rainwater to be retained, water that is raining down the 
road to go in to support street trees and the greenery that we 
want in our city for a whole bunch of reasons. But it also 
reduces stormwater and improves water quality.
    Now, obviously, outside, the Federal has the major Federal 
highways and so much money is spent, and this is a design 
specification issue. I have regularly heard from developers, 
yes, it is an additional cost, but to me this is like a 
plumbing code or an electrical code. Once you set the bottom 
line for how all roads are designed, that now becomes built 
into the cost of every road and you get a benefit of an 
enormous range of--huge expenditures are made on an annual 
basis, and once on a per unit basis it becomes the design 
standard. The cost drops dramatically when you get economies of 
scale. The technology and the techniques all become similar.
    That has been true every step of the way when we have 
imposed higher standards on industry. At first it seems 
insurmountable and will be too expensive, and a few years 
later, as long as it is common, so that a metal finishing plant 
in Vermont has the same standard as the metal finishing plant 
in Montana, so they are all doing the same and the technology 
and the expertise and the consultants. We can do exactly the 
same for roads, with the single biggest buyer being the Federal 
Government.
    Ms. Edwards. Great. Thank you. I appreciate that and I know 
that Ms. Norton will appreciate that being part of the record 
as we consider our surface transportation reauthorization.
    Then, lastly, and any on the panel, and it doesn't have to 
be each of you because time is wasting, but I wonder if you 
could speak to the role of green infrastructure in addressing 
the problems of the Bay runoff and nutrient problem. We talk to 
the particular problems of farmers and agriculture and 
commercial sources, but we need to really look at the 
development question, our commercial buildings, our homes. 
There is a lot of pressure for development throughout the 
watershed, particularly in the urbanized areas. I just wonder 
if any of you could speak to the issue of how we incentivize 
green infrastructure and green building for infrastructure as a 
mechanism and an incentive, if you will, to contribute to the 
health and strength of our Bay.
    Mr. Hawkins. I think that is a great question and I will 
try to be brief; I know we have been with you a long while.
    I would say there are several things. It is a wonderful 
question. There is no question to us in the District that 
incorporating green design standards, the low impact 
development in every kind of structure is one of the 
fundamental step forwards that every jurisdiction in the 
Country should be looking at. It not only is a water quality 
management issue, reducing the amount of stormwater because it 
is retained on site, the stormwater is cleansed of many of the 
nutrients that are the problem. It also helps cool buildings, 
it provides ecology and habitat. There are jobs connected with 
the ongoing upgrade and maintenance of these amenities. And you 
walk down a city street on a hot day and you are underneath a 
tree canopy of a street with trees, and you know what a benefit 
it is to have greenery as part of the quality of life of a 
place.
    There are so many multiple benefits to building green into 
the system. What we are doing in the District, to answer the 
questions that you have raised, is, one, we are increasing the 
building standards, the same thing we are all talking about. If 
you are going to build in the District, what you must do to 
manage stormwater is becoming more stringent. So the rules of 
the game are getting tougher. We are also providing incentive 
grants to help incentivize and provide subsidies for green 
roofs, for example, for the production of those products. We 
have both incentives on one side and regulatory requirements on 
the other. The third is that there is a fee charge in the 
District for how much stormwater you generate, and our 
intention is to have a fee that is scaled. If you do better at 
your site, so you hold more stormwater on your site, less is 
draining out into the pipe, you pay less of a fee. So you have 
a financial incentive because you are generating less 
stormwater; our pipes may need to be less big. Maybe if we do 
enough of it, our bladders under the grown can be a little 
smaller and we can save.
    It is $200 million, I think you said, in the District. 
Jerry Johnson knows this. It is a $2.2 billion project here in 
the District to build those underground caverns to hold that 
stormwater. If we are retaining more on the surface for all 
these benefits, maybe, if we do it at enough scale, we can 
downsize those underground caverns and save some money on the 
other side.
    Ms. Edwards. Thank you.
    I believe Mr. Cummings has one additional question.
    Mr. Cummings. Thank you, Madam Chair.
    Secretary Wilson, one of the things that I--we, in trying 
to pull this all together, one of the strongest groups that 
seemed to be concerned about all that we are trying to do is 
our agriculture community. In Maryland, would--you know, the 
farming community in Maryland would need, I think, additional 
aid to implement additional pollution control measures, at 
least that is what they are saying. If so, what level would 
they be needing, particularly given the challenges that the 
agricultural community is facing now? They are extremely 
sensitive about all of this and I think Mr. Boozman sort of 
referred to some of the issues with the agriculture community. 
That is where we are hearing it.
    Ms. Wilson. Yes, and you raise a very good point, and we 
are hearing the same. In fact, I have mentioned a couple of 
times these new standards for manure management for poultry 
operations that we have just put in place, and I failed to 
mention that those were coupled with some financial assistance 
programs to assist with the cost. As we know, many of our 
farmers are particularly hit hard by the economic challenges 
that the Country is facing.
    So I don't have an answer for you in terms of the dollar 
amount, but I would be happy to work with our Department of 
Agriculture and get that information not you. Suffice it to say 
it is a topic every single day and we are hearing the exact 
same thing.
    Mr. Cummings. Thank you.
    Thank you, Madam Chair.
    Ms. Edwards. Thank you. I know that you will be grateful to 
know that this panel is dismissed. Thank you very much for your 
testimony and your perseverance, and that goes particularly to 
panel three as you join us.
    Today we are joined on panel three by Council Member Cathy 
Drzyzgula from Gaithersburg, Maryland, testifying on behalf of 
the Metropolitan Washington Council of Governments.
    Next is Mr. Jerry Johnson. Mr. Johnson is the General 
Manager of the Washington Suburban Sanitary Commission. It is a 
point of privilege welcoming you because you serve so many of 
the constituents of the 4th Congressional District in Maryland 
and our metropolitan area.
    Our third witness on this panel is Dr. Russell Brinsfield 
from the University of Maryland; and following him, Ms. Molly 
Pugh will testify. Ms. Pugh is the Executive Director of the 
Virginia Grains Producers Association. Then our final witness 
today is Mr. Peter Hughes. Mr. Hughes is the President of Red 
Barn Consulting, based in Lancaster, Pennsylvania.
    Thank you all and, again, thank you for your patience, and 
we look forward to your testimony.
    Council Member Drzyzgula, good to see you today. Please 
turn on your microphone.

     TESTIMONY OF COUNCIL MEMBER CATHY DRZYZGULA, CITY OF 
 GAITHERSBURG, GAITHERSBURG, MARYLAND, TESTIFYING ON BEHALF OF 
METROPOLITAN WASHINGTON COUNCIL OF GOVERNMENTS; JERRY JOHNSON, 
   GENERAL MANAGER, WASHINGTON SUBURBAN SANITARY COMMISSION, 
  LAUREL, MARYLAND; DR. RUSSELL B. BRINSFIELD, UNIVERSITY OF 
MARYLAND, QUEENSTOWN, MARYLAND; MOLLY PUGH, EXECUTIVE DIRECTOR, 
VIRGINIA GRAIN PRODUCERS ASSOCIATION, CHESAPEAKE, VIRGINIA; AND 
PETER HUGHES, PRESIDENT, RED BARN CONSULTING, INC., LANCASTER, 
                          PENNSYLVANIA

    Ms. Drzyzgula. Good afternoon, Representative Edwards and 
Ranking Member Boozman, Members of the Subcommittee. I am 
pleased to be here today. I thank Chairwoman Johnson for 
inviting me to testify about Chesapeake Bay restoration 
activities within the context of reauthorization of Section 117 
of the Clean Water Act. I am Cathy Drzyzgula, a member of the 
Gaithersburg, Maryland City Council, and also Chair of the 
Chesapeake Bay and Water Resources Policy Committee of the 
Metropolitan Washington Council of Governments, commonly known 
as COG. COG is a regional association of 21 local governments 
in the Washington Metropolitan region whose combined population 
represents more than one quarter of the population of the 
entire watershed.
    COG and its Bay Policy Committee have a long record of 
support for the Bay restoration effort. Members of the 
Committee serve on the Chesapeake Bay Program's Local 
Government Advisory Committee and served on the Chesapeake Bay 
Blue Ribbon Financing Panel. COG's Board of Directors recently 
revised its longstanding policy principles to guide local 
government involvement in the Bay restoration effort. The 
principles, which highlight the need for equity, sound science, 
and local government input in setting Bay policy, serve as the 
basis for my comments today. A complete description of COG's 
policy principles is included in my written testimony to the 
Committee.
    As you begin to consider what new regulations and programs 
should be included in reauthorization legislation, please 
consider the following comments, which were distilled from many 
discussions of these issues among our members over the past 
weeks and months.
    EPA and its Bay Program partners are already working to 
issue regulations by December 2010 for a series of Bay-wide 
Total Maximum Daily Loads to achieve the needed reduction in 
nutrients and sediment to achieve Bay water quality standards. 
The standards will include implementation plans, measures for 
assuring progress, and consequences for lack of progress. This 
is arguably the most complex regulatory process ever undertaken 
under the Clean Water Act. In response, COG's member 
governments will need to implement new programs and practices 
to meet more stringent regulatory targets. COG recently hosted 
a meeting of EPA Bay Program and State staff to explore some of 
the many questions that this process has raised. A list of 
questions from that meeting is included in my written comments 
and provides an illustration of the challenges we face. For 
instance, it is not yet clear how to best align the geographic 
scope and overlapping timetables of the TMDLs themselves, their 
watershed implementation plans, and the two-year State 
milestones.
    COG's member governments are concerned about efforts to 
prescribe in great detail new regulatory requirements in the 
Bay watershed. Because of its existing authority under the 
Clean Water Act, EPA, together with the States, already 
regulates municipal wastewater plants and municipal separate 
storm sewer conveyance systems, MS-4s. All of COG's members are 
subject to MS-4 regulation. Prescribing specific penalties for 
non-compliance may limit EPA's flexibility and lead to an 
unproductive use of limited municipal resources.
    Additional regulatory measures for restoring the Bay, 
whether crafted by EPA under its existing authority or 
prescribed in the statute, should recognize the variability and 
economic conditions, geography, and other factors throughout 
the 64,000 square mile Bay watershed. This is particularly true 
of requirements aimed at reducing the water quality impacts of 
stormwater runoff from urban areas. Baseline performance 
requirements should not specify the technology to be used to 
achieve them.
    Similarly, our experience underscores the importance of 
making a distinction between new development and redevelopment 
in meeting performance standards. Baseline performance 
requirements for urban stormwater control should make a 
distinction between new development and redevelopment sites, 
and any redevelopment requirements should be balanced by the 
critical need to encourage infield development and smart 
growth.
    A Federal stormwater performance standard, if established, 
should extend beyond the areas currently subject to MS-4 
permits. This is important both for the sake of equity and to 
ensure that more stringent stormwater regulations do not wind 
up pushing sprawling growth into areas where the requirements 
do not apply.
    Overall cost and cost efficiency cannot be ignored in 
crafting implementation plans and new regulatory approaches for 
restoring the Bay. It is common sense to pursue the most cost-
effective measures for reducing nitrogen, phosphorus, and 
sediment pollution first. Most of these measures involve 
agriculture, as was documented in the December 2004 report Cost 
Effective Strategies for the Bay by the Chesapeake Bay 
Commission. By contrast, achieving significant nutrient 
reductions in stormwater runoff from older urban areas, those 
built before the mid-1980s, and the advent of modern stormwater 
management technology is extremely costly.
    The Washington region's experience with funding 
improvements in wastewater treatment demonstrates that water 
quality progress is best achieved by sharing costs across 
levels of government. This has not been the case for municipal 
stormwater management programs, which, alone among the major 
sources of pollution to the Bay, lack a significant dedicated 
source of Federal or State cost-share funds. Toward that end, 
it is encouraging that the Chesapeake Bay Restoration Act of 
2009, which we heard about earlier from Representative 
Connolly, includes a provision to authorize up to $1.5 billion 
in Federal cost-share funds for local government stormwater 
management efforts. Cost-sharing funding for stormwater 
management is a critically important component of successful 
restoration of the bay.
    I will conclude my statement by emphasizing the continuing 
commitment of local governments in the Metropolitan Washington 
region to the Bay restoration effort. We look forward to 
working with you to ensure that new congressional legislation 
complements ongoing efforts and builds upon the work that has 
already been done.
    Thank you, Representative Edwards, Chairman Johnson, 
Ranking Member Boozman, and Members of the Subcommittee for 
allowing me to testify on behalf of COG today. I would be 
pleased to answer questions.
    Ms. Edwards. Thank you.
    Mr. Johnson?
    Mr. Johnson. Thank you. Good afternoon, Congresswoman 
Edwards, Ranking Member Boozman, and Congressman Cummings, and 
other Members of the Committee. I am Jerry Johnson, General 
Manager of the Washington Suburban Sanitary Commission, and I 
am honored today to speak to you on behalf of WSSC and the 1.8 
million residents we serve in Maryland to testify on the 
reauthorization of the Chesapeake Bay Program and share 
recommendations to protect the national treasure that we call 
the Chesapeake Bay.
    By way of background for the Subcommittee, WSSC is a public 
utility. It is the eighth largest combined water and sewer 
utility in the Nation, with over 1,000 square miles in our 
sanitary district. In addition to the 1.8 million residents 
served, WSSC directly serves nearly 30 Federal facilities, 
including Andrews Air Force Base, NASA Goddard Space Flight 
Center, the National Institutes of Health, and the Food and 
Drug Administration, to name a few.
    Restoring and maintaining the health of the Bay is the 
linchpin from which we can ensure protection of the region's 
waterways and ecosystems. The WSSC has played an important role 
in reducing pollutant loading to the Bay from its wastewater 
treatment plants, designing and deploying technologies that are 
at the limit of technology. However, we can never address the 
multitude of challenges facing the health of the Bay without 
equitably sharing the burden among all sources of water quality 
impairment which impact the Bay. To move forward in a 
meaningful way will require a comprehensive approach that 
allocates Federal, State, local, and non-governmental resources 
efficiently, and mandates equality to maximize pollution 
reduction from all remaining sources.
    It is time that Congress, the States, the regulators, 
Chesapeake Bay Commission, non-government organizations such as 
the Chesapeake Bay Foundation, and others work in concert to 
take a serious look at addressing all sources of pollution, and 
not just point sources. This means taking an aggressive step or 
taking very aggressive steps to address agriculture, 
development, stormwater runoff sources in a manner that is not 
only equitable to all, but enforceable as well. The WSSC and 
the wastewater industry as a whole have invested heavily in 
infrastructure and programs to reduce pollutant loadings.
    Now I believe it is time to acknowledge that the Clean 
Water Act, and the reauthorization of the Bay Program as a part 
of it, must be updated to recognize the critical remaining 
challenges. First, we need to consider a holistic approach to 
addressing multi-jurisdictional challenges like the Bay by 
creating flexibility for watershed-based solutions. Second, we 
need to restore a strong financial partnership with the Federal 
Government to replace our aging infrastructure. Third, the 
Clean Water Act must be renewed to ensure that we target 
limited resources to the most important challenges. And while I 
am certainly appreciative of the House of Representatives in 
passing H.R. 1262 to renew the State Revolving Loan Fund and 
increase the funding levels, I am concerned that those funding 
levels don't quite meet the task of renewing the infrastructure 
that we have to repair. Currently, as a Nation, we face a $500 
billion gap in the spending for wastewater facilities. I look 
forward to working with this Committee to make important 
revisions to the Clean Water Act and SRF funding.
    WSSC is doing its part to address the single largest 
remaining impairment, nutrient loading. We are moving to the 
limits of technology and we are doing the most anyone knows how 
to do in the scientific universe to reduce the amount of 
nutrients that are discharged into the Bay's tributaries, but 
we cannot, by our own actions, solve the problems. As 
previously stated, a watershed approach with a truly equitable 
regional and inter-regional approach is the only path to 
success for the Bay. The Federal role in this effort needs to 
include more meaningful regulatory initiatives that address 
non-point source pollutants as robustly as they have addressed 
point source pollutants. It is critical that we abandon the 
silo approaches that have existed since 1987, when the Clean 
Water Act amendments moved to a comprehensive approach that 
includes all sources to the Bay. Let's address the worst 
problem first.
    I have provided a series of recommendations in my written 
testimony that include funding for E&R upgrades to wastewater 
treatment plants, providing equitable regulatory framework in 
the Clean Water Act, reauthorization based on actual threats to 
water quality, increasing funding for SRF program, direct 
grants for specific projects under the Chesapeake Bay Program, 
adopting a comprehensive grant program within the climate 
change legislation that is pending before Congress, and to 
allow water and wastewater utilities access to critical 
resources and ensuring robust program for Federal grants.
    Ms. Edwards, let me conclude by saying that I believe that 
we can all agree that the Chesapeake Bay is a national 
treasure. The Bay supports an incredibly diverse ecosystem. It 
is in a place where people come from all across the Country to 
swim, fish, boat, and enjoy its national beauty. For those who 
live in its shadows, it enriches our very existence. The 
Chesapeake Bay touches too many lives and impacts our 
environment too greatly for everyone in the region not to work 
towards improving its health. But this will only occur with a 
balanced and effective program that targets today's water 
quality impairments, non-point solutions.
    That concludes my testimony, and I would be pleased to 
respond to any questions that you might have.
    Ms. Edwards. Thank you, Mr. Johnson.
    Dr. Brinsfield?
    Dr. Brinsfield. Thank you, ma'am. It is an honor to be 
here. I appreciate the opportunity to testify on this important 
legislation. My name is Russell Brinsfield. I am a scientist 
with the University of Maryland and actually the mayor of a 
small community on the eastern shore of Maryland as well.
    Despite more than two decades of efforts to restore this 
beautiful Chesapeake Bay, very little verifiable progress has 
been made towards reducing nutrient losses from agriculture. 
This is especially apparent where watersheds are predominantly 
agriculture and the major land use are row crops, animals, 
including poultry, that are the dominant commodities that are 
produced. For example, to date, there is very little evidence 
that water quality at the USGS monitoring station in the Upper 
Choptank is going down. In fact, data suggests that is from a 
predominantly ag watershed that nitrogen levels are actually 
still increasing.
    Likewise, phosphorus transport in watersheds dominated by 
agriculture are even less clear than those for nitrogen. 
Although manufacturers determine phosphorus losses in the long 
term, soil phosphorus levels are the best available indicator 
towards progress in meeting the phosphorus reduction goals. To 
date, there is very little evidence that soil phosphorus levels 
are decreasing.
    Currently, progress towards meeting the nutrient reduction 
goals result mainly from estimates using the Chesapeake Bay 
watershed model. Unfortunately, these efforts have proven to be 
of little value for predicting the effects of implementing 
agricultural best management practices on delivered loads of 
nutrients from agriculture-dominated watersheds. This lack of 
verifiable progress has created doubt as to whether the current 
strategies will even achieve the reductions needed to restore 
the Bay. This doubt has created pressure for more regulatory 
approaches and support for more funding for cost-share 
programs. However, before adjustments are made, it is important 
that methods be developed that would allow the assessment of 
the actual changes in nutrient losses resulting from the 
current strategies. Without reliable tools for tracking 
progress, it would be difficult to determine if policy 
adjustments are needed or if we just need more time to 
demonstrate that the current policies are in fact working. 
Reliable strategies for tracking progress are also necessary to 
develop efficient regulatory and incentive-based programs that 
do not put undue burden on our farmers.
    These hearings on the reauthorization of the Chesapeake Bay 
Program provide a unique opportunity not only to evaluate our 
current strategies for nutrient reduction from agriculture, but 
to integrate the latest science into future strategies. The 
following set of recommendations, performance-based 
recommendations, I want to emphasize, is submitted to help move 
agriculture closer to meeting its responsibilities as outlined 
in the Chesapeake Bay restoration goals. These recommendations 
should be viewed as a framework to begin a broader dialogue to 
develop a consensus for a future strategy.
    Recommendation 1: We need to better target funding both 
geographically and programmatically. We need to identify those 
locations geographically--based on things like salt type, 
slope, distance to streams, cropping systems--that are 
contributing disproportionately large parts of a load and 
implement strategies to maximize those reductions.
    Recommendation 2: We need to improve our nutrient 
management process through a series of practice and program 
changes that include: making sure that the long-term goal for 
phosphorus-based nutrient management planning is to reduce soil 
phosphorus levels to those needed for optimum crop production. 
The current strategy under certain conditions, using the site 
index, allows farmers to increase soil phosphorus levels beyond 
those needed for optimum crop production.
    Number two under nutrient management planning, develop a 
GIS-based system that allows the tracking of soil phosphorus 
levels at the watershed scale over time. Currently, there is no 
way to quantify field, farm, or watershed phosphorus levels to 
evaluate the effectiveness of our current strategy.
    Next, provide incentives to eliminate the surface 
application of all inorganic and organic nutrients. Recent 
research at our center and others have demonstrated that 
applying nutrients to the soil surface without some 
incorporation increases the probability of higher levels of 
nutrients in our surface water runoff. We also need to have a 
goal to eliminate the application of nutrients during the fall 
and winter months, and I might suggest that that also should 
include our urban lawns.
    Recommendation number three: Maximize the use of winter 
cereal cover crops. Research at our center and others have 
shown that winter cereal cover crops planted in the fall have 
been shown to significantly reduce nitrogen losses to 
groundwater during our fall and winter recharge period.
    Recommendation number 4: Establish buffers around all 
ditches, streams, tributaries, and surface waters of the 
Chesapeake Bay. While we have incentives now for tributaries 
and streams, we need to expand those opportunities for buffers 
to be installed around ditches located in farmers' fields to 
keep farmers from spreading nutrients directly in those fields. 
Now, obviously, there has to be some compensation for the 
farmer for having a setback or whatever.
    And, number 5, we need to develop several watershed 
monitoring programs throughout the Chesapeake Bay region at a 
scale large enough to determine the effectiveness of our 
current nutrient management plans. There are no watershed 
monitoring programs in place around the Bay region that allows 
us to discern and to tease out the trends related to the 
practices that we are implementing, and the scale of the 
current monitoring program, for example, the Choptank River, is 
at such a broad scale it is hard to tease out those signals.
    In closing, implementation of these recommendations will 
result in major changes in the way we manage our working 
landscapes throughout the Chesapeake Bay watershed. However, 
based on 25 years of experience working on these issues, I 
believe that while our current strategies are important, 
collectively, they will not result in achieving the nutrient 
reduction goals needed to meet our Bay goals.
    Finally, we need to work more closely with the farming 
community to implement these recommendations in a way that 
minimizes their financial burden and should promote the 
economic viability and the environmental sustainability for our 
working landscapes and for our farmers and future generations.
    Thank you, ma'am.
    Ms. Edwards. Thank you, Dr. Brinsfield.
    Ms. Pugh?
    Ms. Pugh. Thank you, Congresswoman Edwards, for letting me 
share comments with you today. We would also like to thank 
Representative Perriello for his leadership on this issue.
    My name is Molly Pugh, and I serve as Executive Director 
for the Virginia Grain Producers Association. We represent 
Virginia's corn and small grain growers, and make up about 
800,000 acres of crop land in the Commonwealth of Virginia. 
Virginia's ag and forestry makes up about $79 billion of the 
Commonwealth's annual income and about 10.3 percent of the 
State's employment.
    When you look at the Bay Program and challenges to Bay 
restoration, we would assert that there is one first and 
foremost challenge that must be addressed, and that is complete 
and accurate data. In 2003, six years ago, Virginia Tech, which 
is Virginia's land grant university, did a survey of growers in 
Virginia's Coastal Plain region, and in that survey they found 
that there were 75,630 acres currently in conservation 
practices, but only 5,630 of those acres were currently being 
implemented through incentive-based voluntary programs. So, in 
other words, 70,000 acres in the Coastal Plain of Virginia were 
not being counted or given credit in the Chesapeake Bay model, 
because, as you see, unless a grower is being paid to implement 
a practice, that practice is not being counted in the 
Chesapeake Bay model.
    Without accurate info, one, our growers are certainly not 
getting credit for what they are currently doing and the 
results that come out of the program may be inaccurate; and, 
two, without a comprehensive reporting system to track acres, 
we will never be able to meet a milestone or complete Bay 
restoration goals.
    We have heard a lot about accountability today, and I will 
suggest that that goes both ways. Growers need to give us 
information, but we need to commit to protect that information. 
So we would suggest that any organization outside of USDA 
receive aggregate data only in tracking these practices.
    Looking at the Executive Order, Section 202, Report 202(a) 
defines reasonable assurance as enforceable or otherwise 
binding programs to be enforced by the State to achieve set 
goals. That also impacts the definition of a comprehensible 
plan as addressed in Section 117. As interpreted by Virginia 
Governor Kaine, this means, in some cases, mandatory programs. 
One of his initial proposals is mandatory nutrient management 
plans for all farms and all growers in Virginia.
    Certainly, Virginia grain producers are not opposed to 
nutrient management plans or those practices, but mandatory 
does become problematic. For example, if we were to acquire 
mandatory nutrient management plans today, there would not be 
nearly enough certified plan writers to even write the plans 
for farmers to implement. Mandatory plans should be considered 
only after that practice is proven to deliver significant water 
quality benefit on every acre in every type of operation. 
Virginia farming is extremely diverse and there is no one size 
fits all approach that will work.
    Another danger of mandatory programs is creating unfunded 
mandates. Grain farmers pay between $3 and $6 per acre to have 
a certified nutrient management plan written, and with a 
mandatory plan they have no assurance of cost-share assistance. 
This equates to burdensome regulations for our producers, on 
top of 85 percent of Virginia's grain producers already 
implementing best management practices, which include nutrient 
management plans.
    Looking at the Chesapeake Bay Program specifically, we ask 
you to remember that the model with which they adhere is that, 
it is just a model. It is not necessarily reflective of reality 
or real farming scenarios, although it is based on scientific 
information and assumptions. The Bay Program and its model 
needs to be more transparent. We ask that a peer review process 
be created to allow for scientific review period for 
recommended changes to the Chesapeake Bay Program's model.
    After the scientific review, we ask for a comment period to 
be set to allow stakeholders to review changes and to issue 
necessary feedback. Inside funding, we ask that EPA should give 
the State as much authority and flexibility as possible, 
establish adequate funding for technical assistance and 
production research, certainly not suggesting that we expand 
State agency infrastructure, but tools like private crop 
consultants, private writers, Web-based programs, et cetera.
    In closing, environmental goals must meet with farm 
profitability. To borrow a phrase, a well managed farm is the 
Bay's best friend. Supporting one grain farmer that manages 
2,000 acres is much easier and cost-effective than dealing with 
2,000 homeowners that could inhabit that land if farm 
profitability fails. Acre for acre, agriculture is the 
preferred land use in the Bay watershed. By effectively 
supporting production agriculture, we deliver the most 
efficient, cost-effective water quality benefits to the Bay and 
our region's waters.
    Thank you very much.
    Ms. Edwards. Thank you, Ms. Pugh.
    Mr. Hughes.
    Mr. Hughes. Congresswoman Edwards, Madam Chairwoman 
Johnson, Representative Boozman, and Representative Cummings, I 
thank you for this opportunity to testify in support of the 
reauthorization of the Chesapeake Bay Program. I believe the 
role of the Federal Government is critical to the success of 
the Bay restoration effort. I am here today to lend a voice 
from an agricultural perspective; more specifically, an animal 
agricultural perspective from the neighboring Chesapeake Bay 
State of Pennsylvania.
    Although I grew up on a dry land wheat farm in Washington 
State, I have lived in Lancaster, Pennsylvania for the last 10 
years. Eight years ago, I started an agricultural consulting 
and engineering company called Red Barn Consulting. Red Barn 
has grown over the years and currently 10 employees work with 
approximately 650 farm clients within the Pennsylvania 
Chesapeake Bay.
    Most of our farm clients are third and fourth generation 
farmers, and they certainly wouldn't recognize me today if they 
saw me in a coat and tie. Red Barn is a niche consulting 
business solely focused on agriculture, tasked with guiding our 
farmers through the environmental stewardship and compliance. 
We serve the gamut of Pennsylvania agriculture, from the 30-
head Amish dairy to the 2,500-head dairy CAFO located on the 
Mason Dixon Line.
    As you know, 50 percent of the fresh water flowing into the 
Chesapeake Bay comes from the Commonwealth of Pennsylvania. 
With over 83,000 miles of streams and rivers, and an estimated 
80 trillion gallons of groundwater, Pennsylvania is truly a 
blessed water-rich State. I would like to sit here and look you 
in the eye and tell you that Pennsylvania's nitrogen and 
phosphorus loading problems are only because of the 164 waste 
treatment plants and urban and suburban stormwater runoff. But 
this statement is simply not true. Depending on what pie chart 
you use, the largest contributor to nitrogen and phosphorus and 
sediment to the Chesapeake Bay is from agricultural activities.
    One does not have to go far to read about the issues 
surrounding the depletion of the blue crab populations or the 
dead zones that plague the largest freshwater estuary. Even 
though we had the scientific modeling and the statistics to 
support the degradation of the Chesapeake Bay, we are crippled 
by the sociological and geographical connection to the Bay. 
Seventy-three percent of all Pennsylvanians have never seen or 
will ever visit the Chesapeake Bay. That is why it is important 
for agriculture to change its rhetoric and mind-set about what 
the Bay means to its future sustainability.
    Although we may not have the mental connection to the Bay 
itself, I do not know a single farmer who does not have a 
direct relationship with a stream that runs through his or her 
property. We must think of the Chesapeake Bay as our report 
card for environmental stewardship, but focus on the streams 
that run through those local lands. There are a myriad of 
regulations backed by the Clean Water Act for the protection of 
those local streams and watersheds. If we are to meet and 
exceed the expectations of the Executive Order of the 
Chesapeake Bay Protection and Restoration, we in the 
agricultural industry must first and foremost focus on our 
local water bodies.
    It is my contention that agriculture not only has the will 
but the ultimate ability to meet these reductions in nitrogen, 
phosphorus, and sediment. In order to meet these challenges and 
raise the bar of environmental stewardship, agriculture does 
need the technical and educational tools provided under the 
reauthorization of the Bay initiative. I believe we already 
have the laws and statutes within Pennsylvania to guide 
compliance, but we need to muster the political will to enforce 
these regulations.
    Enforcement of regulations under the Clean Water Act is 
only one tool in the toolbox of the Chesapeake Bay restoration. 
A boots on the ground local effort needs to be sorted through 
the strengthening of technical assistance of the public and 
private sectors. Agriculture desperately needs the leadership 
of technical assistance provided by soil conservation 
districts, natural resource conservation service, crop 
consultants, and the Land Grand University extension agents.
    We have seen a dramatic cut in personnel and budgetary 
constraints over the last three years, at a time when the 
knowledge of soil and water conservation are needed the most. 
The Chesapeake Bay reauthorization needs to provide significant 
resources for technical assistance, outreach and education to 
enable and guide the agricultural community.
    The private sector is also ready to meet the agricultural 
challenge, but many depend on grant and funding and Federal 
dollars to support agricultural conservation practices. Red 
Barn has received Federal stimulus money in the form of ARRA. I 
know the private sector will be fiscally responsible with this 
money as it is applied to agricultural operations and new 
ingenuity. Pennsylvania has become a national model for a 
nutrient cap-and-trade free market systems that farmers have 
embraces. Due to low commodity prices, especially milk prices, 
farmer are more than ever seeking ecosystem services to bring 
new revenue streams onto their farm through the acres that they 
own.
    Three years ago, Pennsylvania Department of Environmental 
Protection put forth a nutrient credit trading policy to foster 
the development between the point sources and the non-point 
sources. Red Barn is a certifier of nutrient credits, and we 
started a sister company called Red Barn Trading to aid in the 
pounds of reduction and phosphorus through various forms of 
best management practices. We conducted the first point to non-
point credit trade with a local municipal authority two years 
ago and continue to sign contracts with developers in waste 
treatment plans so they are able to meet their NPDES permits.
    Since the Chesapeake Bay does not recognize the State and 
geographical boundaries drawn on a map, it is my contention 
that, for a cap-and-trade system to truly work, we need a 
robust interstate trading framework. This will bolster the 
fledgling credit trading market and allow for economic and 
environmental sustainability.
    Ms. Edwards. Mr. Hughes, if you could wrap up.
    Mr. Hughes. You bet.
    Ms. Edwards. I know my colleagues have a number of 
questions.
    Mr. Hughes. Sure.
    Agriculture is willing to do its part for restoration. We 
need to have a level playing field and we need to have the laws 
set in place to make sure that we are all following the same 
laws.
    It has been an honor for me to give and share my views with 
you. I cordially invite each of you to put on your boots and 
support the Chesapeake Bay initiative by keeping our farms 
sustainable and environmentally responsible. Thank you.
    Ms. Edwards. Thank you, Mr. Hughes.
    I will go to Ranking Member Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Dr. Brinsfield, you testified that we don't have adequate 
or very little, if any, watershed monitoring stations. Ms. Pugh 
lamented the fact that she didn't feel like we were getting 
accurate information either. What is the reason for that?
    Dr. Brinsfield. Well, part of the problem could be the 
scale at which we are monitoring. The data that I referred to 
at the USGS monitoring station in Greensboro drains about 
50,000 to 60,000 acres of land, so part of it could be, even if 
practices were implemented, there hasn't been enough time for 
that signal, that reduction signal to move its way through the 
system.
    The other possibility is, with regard to groundwater, there 
is a huge lag time between when we implement a practice and we 
get a reduction in groundwater in a field before we see that 
reflected downstream in a gaging station. In some cases, that 
could be decades.
    So it could be a lag time between implementation and 
monitoring, or it could be the lack of effectiveness of the 
strategies that we are currently implementing. But the problem 
is we don't know whether it is one or the other or a 
combination of the two.
    Mr. Boozman. In the Bay area we have seen a tremendous 
increase in population. We have seen a shrinking of 
agricultural land and we have seen the growth of cities. That 
is the normal progression.
    What is your model for what is causing the problem? Is it 
that agricultural practices now are much more restricted in the 
area compared to how they were 50 years ago when this area was 
much more agricultural? If it were pure agriculture then you 
would think that there would be more pollution then than there 
is now. See what I am saying? Tell me the model as to how it 
works.
    Dr. Brinsfield. First of all, I don't want to suggest at 
all that agriculture is not trying to do its part.
    Mr. Boozman. No, I understand.
    Dr. Brinsfield. But the truth of the matter is that the 
suggestion that the progress we have made in agriculture is 
being offset by urban is why you are not seeing a change, that 
may be true in some cases. However, in the watersheds that my 
colleagues and I are monitoring like the Choptank, it is 95 
percent agriculture. Development pressures are certainly not 
there. The gauging stations where we monitor are above the two 
major towns that are on the Choptank. Those would be Easton and 
Cambridge, Maryland. So it is easy to say that it is being 
offset, and some of that is probably true, but it still is not 
clear from my point of view as a scientist.
    It is not that the farmers aren't implementing what we are 
asking them to. The question is how effective are the 
components of the plans that we are asking farmers to 
implement.
    Mr. Boozman. I guess what I am wondering is that 40 years 
ago, that was agriculture then?
    Dr. Brinsfield. Yes, it has always been agriculture.
    Mr. Boozman. Why is it more polluted now than it was 40 
years ago with it still being agriculture? What is the 
difference now?
    Dr. Brinsfield. Well, it is more intense agriculture now. 
For example, when I was a kid, I am a farm guy and still farm, 
we were diversified. We had a dairy farm but back then the 
number of animals that you had on your farm was sized 
specifically to the acres that you had. I remember we had one 
and a half cow/calf units per acre of ground. Our stocking 
density was dependent on that.
    What you have now are more concentrated animal operations. 
You have, particularly on the eastern shore, more poultry. So 
the manure that is generated from poultry is increasing even 
though, say, dairy farming and others are decreasing. And it is 
much more difficult to manage, from a water quality point of 
view, nutrients that come from organic sources, whether it be 
poultry, animal waste, and/or sludge.
    Mr. Boozman. I think Mr. Hughes said that in his area in 
his State he felt that--I will let you comment, too--there were 
many statutes on the books and this and that that take care of 
a lot of this stuff. What percentage are we enforcing?
    The gentleman testified earlier that 90 days out of the 
year they are sending raw sewage into the river. That 
obviously, under the Clean Water Act, shouldn't be happening.
    What percentage are we enforcing? What aren't we enforcing?
    Dr. Brinsfield. With agriculture?
    Mr. Boozman. No, just with everything. Like I say, that was 
a good example. It shouldn't be happening but it happens all 
the time.
    Dr. Brinsfield. It is a small percentage that is being 
monitored closely.
    Mr. Boozman. You are the Mayor of your city. What is the 
phosphorus of your sewage treatment plant?
    Dr. Brinsfield. What is what, sir?
    Mr. Boozman. The phosphorus level of your treatment plant.
    Dr. Brinsfield. We meet the advanced discharge requirements 
for the State of Maryland.
    Mr. Boozman. What is that?
    Dr. Brinsfield. I don't know what it is for phosphorus. I 
think it is four parts per million for nitrogen. But I don't 
have that on the tip of my tongue.
    Mr. Boozman. Okay, very good. Thank you.
    Ms. Edwards. Thank you, Mr. Boozman.
    I just have a couple of questions, first from Mr. Hughes. 
Your testimony was very fascinating. In your testimony, you 
note that due to low commodity prices, especially milk prices, 
farmers are more than ever seeking ecosystem services to bring 
new revenue streams onto the farm through the acres they own. I 
wonder if you could expand on this? Are you actually saying 
that a farmer could make money while at the same time adding 
BMPs and reducing agricultural runoff?
    Then I wonder if you could comment more specifically on the 
kinds of technical assistance you referenced. We know that 
resources are needed, but what specific kinds of technical 
assistance do you think that farmers need so that they can both 
farm and stay in business, and maybe even get ahead of the 
curve, but also meet their responsibilities for protecting the 
ecosystem?
    Mr. Hughes. I appreciate the question. As you can see by my 
testimony, I could probably talk about this all day. You bring 
up a really good point.
    First and foremost, it needs to be shown that in order for 
a farm to participate in ecosystem services such as generating 
nitrogen credits, phosphorus credits, or carbon credits, they 
first must meet a baseline level of compliance. They must have 
a conservation plan. They must be applying those nutrients in a 
way that is not overloading the streams. If we are going to get 
above and beyond any type of nitrogen, phosphorus, and sediment 
to the Bay, they first and foremost have to be meeting 
compliance. Then the type of innovation of what they can do 
above and beyond compliance is where we can get the reductions 
of nitrogen and phosphorus that we need.
    This is not rocket science. Everything about cap and trade 
is to incentivize a sector to do more so that we can have the 
environmental benefit for a sector where it is too cost 
prohibitive. We have that within agriculture. We have that with 
the way they till the soil, with the way that manure is spread. 
These are very simple practices with technical services from 
outside professionals or with technical services from the 
Natural Resources Conservation Service. We have these in place.
    We need to get the word out. We need to have those farmers 
know where those grant and funding opportunities come from. 
They will go for it.
    Ms. Edwards. I hear what you are saying.
    I guess I wondered, Dr. Brinsfield, if you might comment on 
this notion of a mandatory set of standards? It seems that is 
in slight contradiction to Ms. Pugh's testimony that you have 
some kind of a baseline for compliance and provide some set of 
technical assistance. We want to incentivize doing it, but 
farmers have to know what it is that we want. We also need to 
then impose whatever sanctions on non-compliance. Dr. 
Brinsfield?
    Dr. Brinsfield. Thank you for the opportunity to comment. I 
certainly agree that there needs to be a base level of 
standards that farmers have to comply with before they would be 
eligible for the incentive programs that Mr. Hughes was talking 
about.
    On the question of regulation, in Maryland every farmer is 
required to have a nutrient management plan. That plan has to 
be certified by the State by the Maryland Department of 
Agriculture. There are random checks. I know as a farmer I am 
subject to on a random call having my nutrient management plan 
verified, to having a consultant come out, sit down with me, 
and go through that plan.
    Having every farmer in the watershed have that baseline I 
think is a good thing. I think a regulatory framework that 
requires a reasonable nutrient management plan for every farmer 
is not an unreasonable thing to do. That ought to be the 
minimum standard from which a farmer then could be eligible for 
these ecosystem services that were being discussed.
    Ms. Edwards. But that is actually not true throughout the 
watershed, though. There is, as I described earlier, this 
disharmony among the States in the entire watershed in terms of 
this kind of baseline standard. So that might be a role for the 
Federal Government or for this Committee to look at in terms of 
setting that.
    Again, for incentives and the kind of technical assistance 
that farmers need to comply, since you are a farmer, Dr. 
Brinsfield, how much financial stress do you think that places 
on the agricultural community to proportionally implement your 
share of nutrient reductions?
    Dr. Brinsfield. For a nutrient management plan itself, what 
I have learned as a farmer is that the savings resulting from 
the reductions in nutrients that I am applying and the timing 
for applying those nutrients actually pays for itself.
    Let me give you one example of a technology that is 
emerging that is pretty well used at least across Maryland and 
I think across the watershed. For farmers growing corn, we love 
for farmers to split their nitrogen application. In other 
words, don't put all the nitrogen on when you plant the crop. 
Wait until the corn comes up and then put some more nitrogen on 
to try to match the supply of nitrogen with the demand by the 
crop. Up until recently, that was guesswork for how much 
additional nitrogen the farmer would need to apply to meet his 
optimum yield.
    Now there is a test called a pre-sidedress nitrogen test, a 
PSNT test. You can go in when the corn is knee high, pull a 
sample, and within 24 hours a consultant can calculate for you 
the amount of nitrogen that is available in the roots. By 
subtraction you can determine the amount needed to grow the 
corn to where you are not way over-applying.
    That in and of itself, the savings from that plan or that 
strategy way offset the cost of the consultant that I hire 
privately to develop the plan and to do that test for me. My 
point is that nutrient management planning, I think for the 
most part, saves farmers money and also helps protect the Bay 
because we are matching the demand of the nutrient with the 
growth stage of the crops. That way you don't have a large 
amount of nitrogen sitting in the roots that could be leeched 
out if you have a rainstorm event before the crop could take 
that nitrogen up.
    Ms. Edwards. Thank you very much. That is very helpful to 
know because nutrient planning is good farming, good business, 
and at the same time goes to the preferences that we have about 
a thriving Bay.
    My last question is really directed to Mr. Johnson. Again, 
thank you very much for being here as well. Publicly owned 
treatment works have long been regulated under the Clean Water 
Act. Is it your view that improvements can still be made by 
your sector under the Clean Water Act?
    Mr. Johnson. Well, I think as science and technology 
advance there is always some room for improvement in doing the 
kinds of things that we are doing to protect the ecosystem, the 
environment, and public health. But the things that we are 
doing now, especially with respect to nitrogen and phosphorus 
removal, are to the limits of technology. We are pushing these 
systems as far and as hard as we can with all the science we 
are aware of out there.
    But I might take a step further. I realize that this is not 
the question that you posed but I think that it has 
implications. I view the fact as that we have reached a time 
when perhaps the Clean Water Act has outlived its usefulness in 
its present form. The Clean Water Act has made some tremendous 
accomplishments and has done some wonderful things as we have 
progressed through the years and improved our wastewater 
treatment systems and the like across the Country. But now that 
we have taken these regulations, a lot of them are being 
implemented in silos.
    There is one regulation that relates to the CSO control. 
There is another regulation that relates to nutrient removal 
and something that comes on the permit with that on that side. 
Just taking those two examples, what has happened is that if 
you implement those as separate free-standing regulations, the 
cost and your ability to apply certain new technologies and 
different approaches to operate and optimize the operation of 
wastewater treatment plants simply can't be done.
    The example is right here in the District of Columbia where 
we save some $500 million by working closely with the EPA to 
convince them that we needed to look at both a CSO long-term 
control plan and nutrient reduction as a single wet weather 
phenomenon. Just by doing that and by accomplishing that, we 
save $500 million and will have a better effluent going into 
the receiving water.
    There needs to be a look at that so we move to more of a 
watershed-based approach for dealing with these problems and 
impairments in our water body so that we are actually 
addressing the worst problem first, not the first regulation 
that we come to. We function in silos. How can we take all of 
these things and blend them, look at the problem and the most 
critical impairment, and look at the most viable solution for 
addressing that?
    I think that there are examples of that. I think we are 
ripe for that right here in this region with the water bodies 
that we have. We have to look at it from a watershed-based 
approach.
    I think that Mr. Hawkins, earlier in his comments when he 
talked about having sort of the same approach for some of the 
regulatory standards, makes a great deal of sense. If we took 
that approach, then we could look at working across boundaries 
and borders and not having these thousands of different plans 
and approaches for dealing with the pollutants.
    Ms. Edwards. Thank you for your comments, Mr. Johnson. I 
think that you probably speak to less how the Clean Water Act 
has outlived its usefulness than how the Clean Water Act and 
our ability to implement it may need some more expansive 
thinking in terms of coordination. Thank you very much.
    I know that Chairman Oberstar has some questions for this 
panel.
    Mr. Oberstar. I am glad you made that clarification with 
the help of Ms. Edwards. I would take issue that the Clean 
Water Act has, in a broad, sweeping statement, outlived its 
usefulness. It has not been implemented in the way it should 
have been. It has not been carried out the way it was intended. 
It has not been funded to the extent that it should have been. 
And the funding was dealt a severe blow in 1981 in the Reagan 
Reconciliation Bill when the $6 billion sewage treatment plant 
construction grant program was whittled down to $2 billion for 
the balance of that fiscal year and then converted to a loan 
program the next year.
    Those jurisdictions that were in greatest need of funding 
support, those of under 50,000 in population, had to go into 
the marketplace and borrow money. And the larger facilities 
still hadn't completed addressing the needs of the biggest 
waste streams.
    So we have been hobbling along on funding of the Clean 
Water program for 20 some years. We need to turn this around.
    Mr. Johnson. I agree. I think that what has happened is 
that there is a fundamental misalignment, if you would, with 
the way that we are going about implementing it and the 
resources that are available and the demands that are placed on 
various communities for the work that needs to be done.
    Mr. Oberstar. Not to mention the torpedo that the Supreme 
Court fired, two of them, at the Clean Water program. It blew a 
hole in its operation, the effects of which we are still trying 
to cure, in saying Congress really didn't mean what it wrote in 
the opening paragraph of the Clean Water Act of 1972.
    I was in this Committee room where we held a lot of the 
conferences between the House and the Senate. I was Chief of 
Staff for the Committee at the time. We didn't spend 10 months 
shaping the future of the Clean Water program to be told by the 
Supreme Court that we didn't mean what we said. We meant what 
we said.
    The purpose of this Act is to establish and maintain the 
chemical, physical, and biological integrity of the Nation's 
waters. We did not mean little water streams here and there, 
not just the Mississippi, the Ohio, the Illinois, or the 
Columbia that are navigable waters where ships can move. We 
meant all the waters on a watershed basis. That is what we need 
to do. That is what we need to restore. The Chesapeake is 
emblematic of this need for a watershed approach.
    Dr. Brinsfield, you have addressed some very interesting 
new developments, relatively new, with the nutrient management 
plans you described. I think that is a good watershed approach 
principle. Not only does it have the ability to lessen the 
pollution load on the receiving waters but it also has benefits 
for farmers. They are not going to spend as much money or throw 
money away over-fertilizing or under-fertilizing but doing it 
progressively throughout.
    We have had that experience in my district. In several 
years there was low moisture with near drought conditions. 
Farmers put the fertilizer on the fields and the little bit of 
moisture we did have drained some of that nitrogen and 
phosphorus down into the groundwater and poisoned the wells. 
Then there were years of abundant moisture and crops grew well 
beyond because there was so much nutrient in the land.
    More effective management will save money, save the land, 
and save the water as well.
    But I dispute those who say we need to study this issue 
more. The studies are measured in feet and pounds, maybe in 
hundreds of pounds. They are good for the pulp and paper 
industry in my district but not good for management. We need to 
get on with the management plan. There is enough known about 
all these waste loads from the sources throughout this 
watershed that we need now the political will and the 
participatory will of those in the watershed to deal with it.
    Dr. Brinsfield. Can I comment, sir?
    Mr. Oberstar. Yes.
    Dr. Brinsfield. I don't disagree at all. However, one of my 
recommendations as a scientist I need to reiterate. I know you 
don't want to talk about spending money on research so we will 
call it monitoring. We simply don't have the data that we need 
to substantiate in an agricultural setting whether the suite of 
BMPs and nutrient management plans that farmers are 
implementing are working or not.
    The reason that is frustrating to me is because it is my 
opinion that it is not because farmers aren't implementing 
those plans. They have every reason to implement those plans, 
particularly when they can save money and save fertilizer 
through better timing, better genetics with crops, and all of 
the above.
    However, because we don't see a signal at a large scale 
that what farmers are doing is working, there are more and more 
calls for regulation to enforce the plans. I would argue that 
that may not be the case. It may be because of the scale of 
monitoring or it could be that the effectiveness of the 
elements of the plan are not getting the reductions that we 
thought they would as a science community early on. So some 
specific allocation for monitoring at, say, a 5,000 to 10,000 
acre watershed that is predominantly agricultural where the 
suite of BMPs is implemented is critically important to tease 
out whether or not our strategies collectively are working and, 
if they are not, what it is we need to do to make them more 
effective.
    Mr. Oberstar. I don't disagree with that. I think you make 
a good point. I don't want farmers, of whom I have a great 
number in my district, to feel beleaguered or feel that this 
Chesapeake Bay restoration is solely aimed at them.
    It is the land owners, the property and home owners who are 
pouring on unnecessary amounts of fertilizer that is then 
running off into the streets and gutters. They spray the 
fertilizer on the sidewalks and in the streets so it doesn't go 
into the lawn at all. There is no scientific application for 
them. There is much more science applied on farms than there is 
on the back and front yards of these grassy expanses we have. 
That is all running off directly into the gutters, creeks, 
streams, and into the Potomac, the Chesapeake, and elsewhere 
all throughout this watershed.
    But the point is that we know enough that we need to get an 
overall comprehensive plan and have Chesapeake standards, as I 
discussed with the previous panel, to apply to the management 
of this watershed. We need to get on with the things that we 
know can be done.
    Dr. Brinsfield. I agree.
    Mr. Oberstar. Mr. Johnson, I think that is what you were 
headed toward.
    Mr. Johnson. That is what I was trying to say, sir.
    [Laughter.]
    Mr. Oberstar. I am glad you were.
    Mr. Johnson. Though very unartfully.
    Mr. Oberstar. We are going to come out of this with a good 
bill.
    [Laughter.]
    Mr. Oberstar. If we put one tenth of the money into Clean 
Water that we are putting into the TARP program and the bailing 
out of banks--there is more money going into bonuses for bank 
moguls than there is for cleaning up the pollution of this 
Country--it would be a whole hell of a lot better for America 
than where it is going now. So that is my speech and I am 
sticking to it.
    [Laughter.]
    Ms. Johnson of Texas. [Presiding] Thank you, Mr. Chairman.
    Mr. Boozman, I believe you have one question?
    Mr. Boozman. Very quickly, you mentioned that it is more 
concentrated with poultry and things like that, animal waste. I 
am familiar with what they do with that in Arkansas in the 
sense that I represent a district that has Tyson and a lot of 
stuff like that going on. In this part of the Country, what do 
you do with the waste? Again, anybody that wants to answer can. 
Mr. Hughes? Dr. Brinsfield?
    Mr. Hughes. Yes, sadly I do know that. Most of it is land 
applied. We have got broken nutrient budgets. We have all of 
that feed coming from the Midwest feeding the birds and that 
manure stays here within the Chesapeake Bay. We do have 
nutrient management plans but there is no way of disposal.
    Mr. Boozman. They are not burning it? They are really not 
doing anything creative to get rid of it?
    Mr. Hughes. No, that is just now starting.
    Mr. Boozman. Okay. That is something, again, I think that 
we need to look at. There really are a lot of creative ways to 
use it where it can be beneficial.
    Dr. Brinsfield?
    Dr. Brinsfield. Yes, I have to come to the defense of my 
farming community on this. The poultry manure is a huge 
resource for the farming community, particularly since nitrogen 
and phosphorus prices went through the roof. I would argue that 
it is not so much the use or overuse of the poultry manure. It 
is the methods that we apply, the timing of when we are 
applying it, how we are storing it, and the distance that we 
are allowing it to be spread from streams. I would argue that 
with good nutrient management planning, particularly a 
phosphorus-based planning, we can use that manure as a 
resource.
    But we are going to have to make sure that we don't apply 
that in the fall and the winter. We need to apply it in the 
spring. We are going to have to have some tillage to get that 
manure under the soil surface because our runoff losses are far 
greater when we don't incorporate that manure. We are going to 
have to have setbacks from our ditches on our farms, as well as 
from our streams and tributaries.
    So I think there is a suite of things that we have learned 
in the last decade as a science community that has not been 
fully implemented in the farming arena that would allow the use 
of these organic wastes in a way that is much more sustainable 
and much more friendly to the Chesapeake Bay. I would argue 
that we need incentives to get farmers to do those things.
    Let me give you an example. In Europe they have developed 
equipment where a farmer can drive along a ditch and he has a 
shield on the manure spreader that stops the manure from being 
spread directly in the stream. We need that kind of technology. 
Or we need to say to a farmer you have got to have a 25 foot 
setback from the stream from where you spread your manure but 
we will incentivize you for planting, say, switchgrass. Maybe 
that switchgrass could emerge as a biofuel for direct 
combustion or for cellulosic ethanol. That way the farmer could 
get some return on his investment that he has lost because he 
has had to provide that setback.
    I think there are all kinds of creative ways that we have 
not tapped very well because of a sort of disconnect, maybe, 
sometimes between the science and the implementation. You may 
or may not have had a chance to look at those recommendations 
that I submitted. They were developed not by me but by a broad 
consensus of scientists, farmers, and environmentalists as key 
steps to move ourselves much farther towards meeting the 
agricultural Bay reduction goals and keeping agriculture 
economically viable. That is the key.
    I agree that we never see farms go from farming back to 
forest. They go from farms to urban/suburban development. I 
have just one other point. Agriculture is the largest 
contributor because it is the largest land use. But if you look 
at it on a per acre basis, it is not necessarily the largest 
contributor. So we need to keep that in context as well.
    Mr. Boozman. I think that is a very, very good point.
    Thank you Madam Chair. Thank all of you for being here. I 
have really enjoyed the testimony. You were very, very helpful. 
It has been a good hearing.
    Ms. Johnson of Texas. Thank you.
    Thank you again for your testimony and for your patience. 
It has been a learning experience, I think, for all of us. We 
appreciate it. It still tells us that we have a little bit more 
work to do.
    We stand adjourned.
    [Whereupon, at 5:30 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
